    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
    disclosure to third parties. No redaction has been performed by the Office ofInspector General.
    Recipients of this report should not disseminate or copy it without the Inspector General's approval.




I


                                REPORT OF INVESTIGATION

     UNITED STATES SECURITIES AND EXCHANGE COMMISSION
                OFFICE OF INSPECTOR GENERAL


                                           Case No. OIG-533


    Investigation of the Failure of the SEC's Los Angeles Regional
      Office to Uncover Fraud in Westridge Capital Management
    Notwithstanding Investment Adviser Examination Conducted                                                  '.:


     in 2005 and Inappropriate Conduct on the Part of Senior Los
                            Angeles Official


                                          October 26, 2010
           REDACTION KEY

LE = Law Enforcement Privilege/Potentially

      Harmful to Ongoing Litigation

EM = Examination Material

PII = Personal Identifying Information
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                                            REPORT OF INVESTIGATION

                                                        Case No. OIG-533

               Investigation of the Failure of the SEC's Los Angeles Regional Office to
                 Uncover Fraud in Westridge Capital Management Notwithstanding
               InvestmentAdviser Examination Conducted in 2005 and Inappropriate
                          Conduct on the Part of Senior Los Angeles Official

                                                Table of Contents
Introduction and Background .............................................................................................. 4
Scope of Investigation......................................................................................................... 5
Relevant Statutes- and Rules ................................................................................................ 7
The Commission's Conduct Regulation and Canons of Ethics .......................................... 7
Executive Summary ................................. ;.......................................................................... 8
Results of the Investigation ............................................................................................... 14
  1.   In 2005, the LARa Examination Team Failed to Conduct a-Thorough and
       Satisfactory Examination of Westridge Capital Managemerit and Failed to
       Follow up on Numerous Red Flags ...................................................................... 14
     A. An Inexperienced Staffer was Assigned to Lead the 2005 Examination of
         Westridge Capital Management.. ....................................................................... 14
     B. In Preparing for the 2005 Examination of Westridge, the LARa
         Examination Team Identified Red Flags in Westridge's Investment
         Strategy and Structure ........................................................................................ 15
     C. In Planning the Examination in 2005, the lARa Examination Team
         Reviewed a 2000 Examination Report, Which Contained a Custody
         Analysis and Initially Intended to Focus on Custody Issues ............................. 17
     D. Despite the Red Flags, a Satisfactory and Through Examination of
         Westridge was Not Conducted ........................................................................... 18
       1. The 2005 LARa Examination Team Ignored the Overwhelming
           Majority of Client Assets Invested by Westridge ........................................... 18
       2. The Examination Team Took No Action to Verify that Funds Were
           Invested in WG Trading, Notwithstanding Their Discovery of a Lack
           of Due Diligence on the Part of Westridge ..................................................... 20
       3. The Examination Staff Identified Numerous Other Red Flags During
           the 2005 Westridge Examination, but Failed to Follow-Up
           Appropriately ............. :.................................................................................... 21
       4. Upon Review of the Westridge Report, Senior BRa Examiners
           Concluded that There Were Numerous Red Flags Uncovered During
           the 2005 Westridge Examination That Required Follow-Up ......................... 25
       5. Despite the Numerous and Obvious Red Flags Identified During the
           2005 Examination, the 2005 LARa Examination Team Actually
           Lowered Westridge's Risk Rating After the Examination ............................. 28
     This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate or copy it without the Inspector General's
     approval.

         II.Although the 2005 LARO Examination Team Made a Decision to Refer
            Their Findings to the BRO for an Examination of WG Trading, the Referral
            Was Never Made and No Examination was Conducted ...................... ,................ 29
          A. Decision to Make a Referral .............................................................................. 29
          B. Although the 2005 Examination Report Stated that the 2005 LARO
              Examination Team Made a Referral, There is No Evidence a Referral
.1            Occurred ........................ ~ ..................................................................................... 30
            1. No Recollection of Actually Sending the Referral ......................................... 30
            2. No Record of a Referral .................................................................................. 32
            3. The Lack of Protocols for Referrals or Follow-up .......................................... 35
       III. If a Satisfactory and Thorough Examination of Westridge had Been
            Conducted, the Fraud May Have Been Uncovered in 2005 ................................. 37
          A. An Experienced Examiner and Branch Chief, After Just a Couple of
              Days of Researching Westridge, Determined in 2009 that Westridge was
              a High Risk Firm that Should be Placed at the Top of an Inspection List.. ....... 37
          B. The NFA Forwarded Information About Potential Fraud to the SEC and
              an Experienced Examination Team Was Assigned to Conduct
              Simultaneous Examinations of Westridge and WG Trading ............................. 40
          C. Several of the Major Findings in the 2009 Examination Could Have Been
              Found, or Were Found, in the 2005 Westridge Examination ............................ 41
            1. Due Diligence and Asset Verification ............................................................ 41 .
            2. Marketing Omissions and Misrepresentations ................................................. 44
            3. Custody Issues ................................................................................................ 44
            4. Review of Records from Vv'GTI.. .................................................................... 45
       IV. If the LARO had Referred their Findings in the Westridge IA Examination
            and a Broker-Dealer Examination of WG Trading had been Conducted, the
            Fraud Would Also Likely Have Been Discovered ............................................... 52
       V. AllegationOCIE Supv. 4 Attempted to Cover up Mistakes he Made in the 2005
            Examination During his Supervision of the 2009 Examinations .......................... 55
 i     VI. Numerous Complaints About OCIE                 Supv. 4 Management Style Were Not Addressed

I           by His Superiors ................................................ ;............................·....................... 58
       VII. Allegation OCIE Supv. 4 Made Misstatements PII                                                                ............... 60
     Conclusion .......... :............................................................................................................. 61




                                                                      3
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.


                                    REPORT OF INVESTIGATION
        UNITED STATES SECURITIES AND EXCHANGE COMMISSION
                   OFFICE OF INSPECTOR GENERAL

                                              Case No. OIG-533

       Investigation of the Failure of the SEC's Los Angeles Regional Office to
         Uncover Fraud in Westridge Capital Management Notwithstanding
       Investment Adviser Examin"ation Conducted in 2005 and Inappropriate
                  Conduct on the Part of Senior Los Angeles Official
                                        Introduction and Background

              On March 15, 2010, the Securities and Exchange Commission ("SEC") Office of
   Inspector General ("OIG") received an anonymous complaint, detailing failures and
 " inappropriate conduct concerning the investment adviser examination program at the
   SEC's Los Angeles Regional Office ("LARO"). The complaint alleged that
 OCIE Supv. 4
                                                in the investment adviser examination program in
  the LARO, "instructed (and even bullied) examiners to not pursue certain red flags in an
  examination where the LARa exam staff uncovered a massive fraud." The complaint
                   OCIE Supv.
  further stated 4            apparent motive for doing this seemed to be that he either performed
  or was materially involved in directing the most recent prior exam at the firm [that] did
  not uncover this giant fraud, although it may have existed at the time." The complaint
  identified the examination as involving "WG Trading Company/Westridge Capital
  Management" and the examiners as SEC Securities Compliance ExaminersOCIE Empl. 8
  and OCIE Empl. 5             The anonymous complaint also alleged OCIE
                                                                      4
                                                                         Supv.
                                                                               lied to OIG
  investigators during testimony in a previous OIG investigation.

           In addition, the complaint alleged that a hostile work environment existed at the
      LARa because LARa management did not aggressively discipline PII
PII

PII
                   The complaint also made wrongful employee termination claims.

             The OIG found in its investigation that on February 25, 2009, the SEC filed an
      emergency action in the U.S. District Court for the Southern District of New York,
      obtaining an asset freeze and a temporary restraining order against Paul Greenwood
      ("Greenwood"), Stephen Walsh ("Walsh"), and their companies, WG Trading Company,
      L.P. ("WG Trading"), a registered broker-dealer, Westridge Capital Management, Inc.


      1 Because of their respective jurisdictions, the OIG and the SEC's office of Equal Employment
      Opportunity ("EEO") decided that the EEO office would have responsibility for investigating the hostile
      workplace and related-employment allegations in the anonymous complaint.


                                                          4
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

      ("Westridge"), a registered investment advisor, and WG Trading Investors, L.P.
      ("WGTI"), an unregistered investment vehicle. According to the SEC Complaint, since
      at least 1996, Greenwood and Walsh solicited a number of institutional investors
      including educational institutions and public pension and retirement plans, by promising
      to invest their money in an enhanced equity index strategy. See SEC v. WG Trading
      Investors, L.P., et. aI., No. 09-1750 (SDNY filed Feb. 25, 2009) at Exhibit 1. However,
-j    instead of investing the money as promised, the complaint alleged that Greenwood and
      Walsh misappropriated as much as $554 million in investor assets in the operation of a
      Ponzi scheme. Id.

               The OIG investigated the allegations in the complaint, focusing on the failure of
      the IARO to detect the fraud at Westridge during its 2005 examination. We thoroughly
      analyzed the information that was uncovered by LARa examiners in 2005 and
      investigated whether additional work should have been undertaken to uncover the fraud,
      including why it was recommended that the 2005 investment advisor examination of
      Westridge.be referred to the Boston Regional Office ("BRO") for an. examination of the
      affiliated broker-dealer WG Trading, but no examination was conducted. The OIG also
      investigated the allegations against OCIE Supv. 4    to his interactions with examiners in
      connection with the 2009 examinations and his overall management style.

                                           Scope of Investigation

             The OIG obtained and reviewed the e-mail records of 11 former and current SEC
     employees, including all employees listed in the 2005 \Vestridge investment adviser
     ("lA") examination report and all employees listed in the 2009 Westridge IA examination
     report and WG Trading broker-dealer ("BD") examination report.

             In all, the OIG searched over 68,000 e-mails. We obtained and reviewed e-mails
     for the period from January to May 2005 for all examiners who had any involvement
     with the 2005 Westridge IA examination. We also obtained and reviewed all e-mails for
     the period from February 2009 to August 2009 for examiners who worked on either the
     2009 Westridge IA examination or the 2009 WG Trading BD examination.

               In addition, on several different occasions, the OIG requested documents from the
       SEC's Office of Inspections Compliance and Examinations ("OClE"). The documents
       requested and reviewed included the 2002,2005, and 2009 IA examination reports for
       Westridge, the 2009 BD examination report for WG Trading, documents regarding
     . OClE's e-mail search for evidence of a referral to the BROof the 2005 Westridge
-I
       examination and the working file for the 2005 examination. The OIG carefully
       scrutinized and analyzed these documents, and consulted individuals within the OIG who
       have expertise in conducting OCIE examinations designed to uncover fraud.

            The OIG also took the on-the-record testimony of the following 17 witnesses who
     had knowledge of the facts and circumstances surrounding the 2005 examination of



                                                       5
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.

         Westridge, the 2009 examinations of Westridge and WG Trading, the possible
         examination referral to the BRa, and. possible OCIE Supv. 4 misconduct:

                (1)      David Bergers, RegionalDirector, BRa, Securities and Exchange
         Commission; taken on May 10,2010 ("Bergers Testimony Tr."). Excerpts of Testimony
         Transcript attached as Exhibit 2.
                        OCIE Supv. 2
                      (2)                                                  BRa Broker-Dealer
          Examination group, Securities and Exchange Commission; taken on May 10,2010
         OCIE Supv. 3
                          Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 3.

                 (3)     Lucile Corkery, Associate Regional Director, BRa Examination group,
.   '[
         Securities and Exchange Commission; taken on May 10, 2010 ("Corkery Testimony
         Tr. "). Excerpts of Testimony Transcript attached as Exhibit 4.

                (4) SEC Empl. 2                               BRa, Securities and Exchange Commission;
                                       SEC Empl. 2
         taken on May 10,2010                        Testimony Tr."). Excerpts of Testimony Transcript
         attached as Exhibit 5.

                 (5) .Former SEC Supv. 1                                              BRa,
         Securities and Exchange Commission; taken on May 24,2010 (Former
                                                                   Supv. 1
                                                                           SEC
                                                                               Testimony Tr.").
         Excerpts of Testimony Transcript attached as Exhibit 6.
                        OCIE Empl. 5
                 (6)                                  LARO Broker-Dealer Examination group,
         Securities and Exchange Commission; taken on June 17,2010 (OCIE Empl. 5 Testimony
         Tr."). Excerpts of Testimony Transcript attached as Exhibit7.

                 (7) OCIE Empl. 8              LARa Investment-Adviser Examination group,
         Securities and Exchange Commission; taken on June 17,2010 OCIE Empl. 8 Testimony Tr.").
         Excerpts of TestimonyTranscript attached as Exhibit 8.
    i
    I
    I
                 (8) OCIE Supv. 5                  LARO Investment-Adviser Examination
         group, Securities and Exchange Commission; taken on June 17,2010 OCIE
                                                                          5
                                                                               Supv.
                                                                                     Testimony
         Tr."). Excerpts of Testimony Transcript attached as Exhibit 9.
                       OCIE Supv. 10
                (9)                                        LARa Investment-Adviser Examination
         group, Securities and Exchange Commission; taken on June 17,2010 ("OCIE Supv. 10
         Testimony Tr.") and June 25, 2010 ("OCIE Supv. 10  Testimony Tr."). Excerpts of these
         Testimony Transcripts attached as Exhibits 10 and ll,respectively.

                (10) OCIE Supv. 6                LARa Investment-Adviser Examination
         group, Securities and Exchange Commission; taken on June 18,2010 ( OCIE Supv. 6
         Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 12.




                                                               6
        This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
        before disclosure to third parties. No redaction has been performed by the Office of Inspector
        General. Recipients of this report should not disseminate or copy it without the Inspector General's
        approval.
                      OCIE Empl. 4
                (11)                                                         LARO, Securities and
        Exchange Commission; taken on June 18,2010 (OCIE Empl. 4            Testimony Tr."). Excerpts
        of Testimony Transcript attached as Exhibit 13.

                (12) OCIE Supv. 11
                                                                               OCIE
        Securities and Exchange Commission; taken on June 18,2010              Supv. 11   Testimony Tr.").
        Excerpts of Testimony Transcript attached as Exhibit 14.

                (13) Martin Murphy, Associate Regional Director of Regulation, LARO,
        Securities and Exchange Commission; taken on June 18,2010 ("Murphy Testimony
        Tr."). Excerpts of Testimony Transcript attached as Exhibit 15.
                        OCIE Supv. 8
                    (14)                                   LARO Investment-Adviser
         Examination group, Securities and Exchange Commission; taken on June 21, 2010
       OCIE Supv. 8
                         Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit
         16.
                       Former OCIE Empl. 3
                    (15)                                       LARO Investment-Adviser
        Examination group, Securities and Exchange Commission; taken on June 21, 2010
       Former OCIE Empl. 3 Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 17.

               (16) Rosalind Tyson, Regional Director, LARO, Securities and Exchange
        Commission; taken on June 25, 2010 ("Tyson Testimony Tr."). Excerpts of Testimony
        Transcript attached as Exhibit 18.
: -j

                (17) OCIE Supv. 4                             LARO Investment-Adviser
       . Examination group, Securities and Exchange Commission; taken on July 12, 2010 OCIE Supv. 4
         Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 19.


                                             Relevant Statutes and Rules


                     The Commission's Conduct Regulation and Canons of Ethics

                 The Commission's Regulation Concerning Conduct of Members and Employees
        of the Commission (hereinafter "Conduct Regulation"), at 17 C.F.R. §§ 200.735-1 et
        seq., sets forth the standards of ethical conduct required of Commission members and
        employees (hereinafter referred to collectively as employees). The Conduct Regulation
        states in part:

                        The Securities and Exchange Commission has been
                        entrusted by Congress with the protection of the public
                        interest in a highly significant area of our national
                        economy. In view of the effect which Commission action


                                                         7
           This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
           before disclosure to third parties. No redaction has been performed by the Office of Inspector
           General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
           approval.
                                                                                                                 'of,..



                           frequently has on the general public, it is important that ...
                           employees ... maintain unusually high standards of
                           honesty, integrity, impartiality and conduct. ... [and] be
                           constantly aware of the need to avoid situations which
                           might result either in actual or apparent misconduct or
                           conflicts of interest. ...
. '!

           17 C.F.R. § 200.735-2.

                   The Commission's staff has the obligation to continuously and diligently examine
           and investigate instances of securities fraud, as set forth in the Commission's Canons of
           Ethics. 17 CFR §§ 200.50, et. seq. The Canons of Ethics states that "[i]t is characteristic
           of the administrative process that the Members of the Commission and their place in
           public opinion are,affected by the advice and conduct of the staff, particularly the
           professional and executive employees." 17 C.F.R. § 200.51. Hence, "it shall be the
           policy of the Commission to require that employees bear in mind the principles specified
           in the Canons." [d.

                   The Canons provide that "[i]n administering the law, members of this
          Commission should vigorously enforce compliance with the law by all persons affected
          thereby." 17 C.F.R. § 200.55. The Canons acknowledge that Members of the
          Commission "are entrusted by various enactments of the Congress with powers and
          duties of great social and economic significance to the American people," and that "[i]t is
          their task to regulate varied aspects of the American economy, within the limits
          prescribed by Congress, to insure that our private enterprise system serves the welfare of
          all citizens." 17 C.F.R. § 200.53. According to the Canons, "[t]heir success in this
          endeavor is a bulwark against possible abuses and injustice which, if left unchecked,
          might jeopardize the strength of our economic institutions. [d.


                                                Executive Summary

                  On March 15, 2010, the OIG received an anonymous complaint, alleging that
       OCIE Supv. 4
                                                    in the investment adviser examination program
          in the LARa, "instructed (and even bullied) examiners to not pursue certain red flags in
          an examination [of Westridge Capital Management and WG Trading] where the LARO
          exam staff uncovered a massive fraud" and that his motive was related to his involve
          in a previous examination of Westridge. The anonymous complaint also alleged that OCIE Supv. 4
          lied to OIG investigators during testimony in a previous OIG investigation.

                  The OIG found in its investigation that on February 25, 2009, the SEC filed an
          emergency action in the U.S. District Court for the Southern District of New York,
          obtaining an asset freeze and a temporary restraining order against Paul Greenwood,
          Stephen Walsh, and their companies, WG Trading, a registered broker-dealer, Westridge
          a registered investment advisor, and WGTI, an unregistered investment vehicle.


                                                           8
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.

  According to the SEC Complaint, since at least 1996, Greenwood and Walsh had been
  misappropriating as much as $554 million in investor assets in the operation of a Ponzi
  scheme.

          The OIG investigated the allegations in the complaint, focusing on the failure of
  the LARO to detect the fraud at Westridge during its 2005 examination. In conducting
  the investigation, the OIG searched over 68,000 e-mails and took the testimony of 17
  witnesses who had knowledge of the facts and circumstances surrounding the matter.

            The OIG investigation found that in 2005, the SEC's Los Angeles Regional
    Office missed a significant opportunity to uncover the Ponzi scheme and failed to
    conduct a competent and thorough examination of the investment adviser, Westridge, and
    did not take the necessary steps to ensure that a follow-up examination of the broker-
    dealer, WG Trading, was conducted. The OIG investigation also confirmedOCIE Supv. 4 was
PII
                           on the 2005 examination of Westridge and that he also PII
    the 2009 examinations of Westridge and WG Trading.

        The OIG investigation further found that the 2005 Westridge examination was
 flawed in numerous respects. We found that significant portions of the field work and the
 writing of the examination report for the 2005 LARO examination of Westridge were
 conducted by a nearly brand-new examiner. We further found that while the LARO
 examination team became aware of obvious red flags about Westridge's operations that
 should have been scrutinized in the examination, the examination failed to follow-up on
 these matters and minimized the concerns they found.

         The examiners who conducted the 2005 Westridge examination acknowledged
 that Westridge's investment structure in which Westridge clients became limited partners
 in the broker-dealer, was a red flag in and of itself, and its complex investment strategy
 combined with its goal of circumventing Regulation T and unusually high leverage were
 highly questionable. Moreover, the OIG investigation found that a brief, cursory review
 of Westridge conducted in 2009, which was based upon information available to the 2005
 examiners, immediately determined that Westridge had numerous, significant red flags
 and risk factors that warranted immediate scrutiny and examination.

          In addition, the LARO examination team reviewed the report of a previous
  examination of Westridge conducted in 2000 and identified specific concerns regarding
  Westridge's ability to access client assets held by WG Trading, and based upon that
  review, made a decision that "the examination will focus on custody issues." However,
  the actual examination did not conduct a custody analysis and made no effort to
  scrutinize Westridge's custody arrangement. In fact, although 80-85 percent of client
  assets were invested in the affiliated broker-dealer, WG Trading, the 2005 examination
. made no effort to examine these assets, even though the examination team admitted that
  they were "uncomfortable with the WG Trading activities."




                                                   9
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
   approval.

           Yet, even when the LARO examination team made significant findings, they
   failed to appreciate or the significance of or follow up on what they found. For example,
   trade blotters, which were supposed to have been reviewed by Westridge to verify the
   investment strategy their investors were utilizing were discovered by the LARO
                           e contained within LE
LE
                            however, no explanation was given to the examiners as to why
   they were not being reviewed.

          The 2005 LARO examination team also identified numerous "red flags" during
  the course of the Westridge examination, which they noted in the report. . One of the most
  significant concerns identified related to the poor compliance culture at Westridge. The
  examination staff concluded that Westridge had "ineffective compliance procedures and
  practices." They also concluded that Westridge "did not consider compliance with the
  federal securities laws to be a priority." Yet, even though they further documented that
  Westridge, a $1.3 billion company, had hired a completely inexperienced compliance
  officer and purportedly could not afford compliance seminars, these concerns did not
  trigger further scrutiny or examination.

          The LARO examination team also found "a myriad of inaccuracies" in
  Westridge's Form ADY. The report noted 15 incidents of inaccurate or incomplete
  information on the Form ADV, including failing to disclose that Westridge gave advice
  on interests in partnerships. However, these inaccuracies were attributed to Westridge's
  compliance culture, which was dismissed as merely "sloppy."

          The 2005 examination also disclosed that Westridge's marketing materials
  contained significant omissions and failed to dearly describe its investment strategy, yet
  the examiners did not attach significance to these findings. The LARO examination team
  also uncovered that Westridge's stated policy was to delete all·e-mails after a hardcopy
  was printed and although, as a result, they were unable to review e-mail documentation as
  part of their examination, they did not ascribe improper motives to this finding,
  concluding that Westridge officials. were simply, "not technology savvy."

            The OIG investigation further found that after conducting the examination, the
     2005 LARO examination team actually not only failed to follow-up on obvious red flags
    but, inexplicably, decided to lower Westridge's risk rating to "risk group 2 - medium
    risk" as a result of their examination. The 2005 Westridge examination report justified
    the decision to downgrade Westridge's risk rating as follows: LE, EM
LE, EM
                                                   do not appear to involve a high degree of
    risk." However, the report did not elaborate on this determination and on the very same
    page of the report stated that "there are significant risks associated with the operations of
    WG Trading."

         While the LARO examination team dismissed the red flags relating to the
  investment adviser, Westridge, they did have enough concerns about the operations at
  WG Trading that they decided to recommend that the Boston Regional Office ("BRO")


                                                   10
     This document is subject to the provisions of the Privacy Act of 1974, and may requir~ redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate or ~opy it without the Inspector General's
     approval.

     conduct a broker-dealer examination of WG Trading. Several times in the 2005
     Westridge Examination report, the LARO examination team noted its intention to refer
     its report to the BRO for an examination of WG Trading; the OIG investigation found
     that all members of the 2005 examination staff generally believed that a broker-dealer
     examination was warranted.

               However, the OIG found that the referral never happened. The OIG investigation
       determined that none of the members of the 2005 LARO examination team could recall
       actually referring the matter to the BRO and no one in the BRO ever received a referral.
       In addition, numerous e-mail searches were conducted, including by the OIG, and the
       results showed no e-mails between the LARO and the BRO regarding W~stridgeand no
     . internal LARO e-mails discussing a referral to BRO amongst the LARD staff. In
      addition to finding no written evidence of a referral, the OIG investigation also found the
      consensus among the examination staff was that even if a referral was made orally, rather
       than through an e-mail or written document, there would be some documentation
      s()mewhere referencing the referral, and likely some documentary record of the report
      being provided together with the referral.

              The OIG investigation further found that in the timeframe of the 2005 Westridge
     examination in the LARO, there were no policies or protocols that governed the referral
     of examination findings and no instructions on how a referral was to be made. In
     addition, there was no procedure for following up on a referral and in fact, although the
     2005 Westridge examination report specifically referenced that the findings were being
     referred to the BRO, no one on the LARO examination team made any effort to confirm
     that a referral had been made, or inquired as to whether the BRO received the referral,
     conducted an examination or found any fraud. Thus, no examination was conducted of
     WG Trading, allowing the fraud to continue.

           The OIG further found thatin 2009, when an experienced examination team                          /- J   ~:




   conducted a joint investigation of Westridge and WG Trading, following up partially on a
   referral from the National Futures Association ("NFA"), which found several suspicious
   documents in an audit, and the LARO's own assessment of high risk finns, t~.e fraud was
   easily uncovered. The examiners acknowledged that Westridge and WG Trading were
  both operating in the "exact same fashion" in 2009 as they were in 2005, and the OIG
 . investigation found that when the 2009 examination team followed up on the same "red
  flags" identified in 2005 the 2009 team immediately discovered the fraud.
                                                                 LE
            The 2009 LARO examination team found that
LE




LE
                                                                    The OIG investigation
     found that the 2005 LARO examination staff had access to similar records during their
     examination LE                                       trading blotters could have ~been
                                                 PII
     used as evidence of the same violation. The            on the 2009 examination'


                                                     11
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties: No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

actually confirmed that the fraud was uncovered with very simple methods in 2009,
noting, "in retrospect that fraud was not that hard to uncover." He explained, "all you
reall y had to do was look at the amount of net assets that were on Westridge' s books,
compare that with the amount of money that WG Trading was representing that they were
managing, and those amounts just didn't tie out." Yet, this simple analysis was not done
in 2005.

        The 2009 LARO examination team also found that Westridge provided inaccurate
and misleading marketing materials to its clients, as had the 2005 examination team.
However, unlike the 2005 examination team, who dismissed these inaccuracies as
Westridge being "sloppy," the 2009 team specifically referenced the omissions in
Westridge's Form ADV about the existence and purpose of promissory notes in their
report and found these omissions to be material.

        Perhaps most significantly, the 2009 examination team conducted a custody
analysis, ·something that the 2005 team had planned to conduct, but never did .. The 2009
LARD examination team determined that because the two senior officials were "owners,
and thus supervised persons of [Westridge], and had access to all client funds that were
invested in or passed through WG Trading and Westridge, [they] had custody of the
applicable client's assets." As a result, the 2009 LARD examination team determined
that Westridge was not in compliance with the custody rule with respect to the invested
assets because Westridge's clients did not receive statements reflecting the appropriate
holdings and transactions, as required by the rule. The DIG investigation found that the
2009 LARO examination team made this custody determination based on the same facts
that existed in 2005.

       The 2009 LARO examination team also obtained the records of WGTI, the
unregistered investment advisor that was being used as a "pass-through" between
Westridge and WG Trading, and in those records uncovered evidence of the fraud. The
2005 LARO examination team did not even request WGTI records during their
examination and seemed confused about whether the SEC had any authority to obtain
documents from unregistered entities even where they suspected fraud.      .

          The OIG investigation found a major differenCe between the manner in which the
-two examinations were conducted related to the fact that the 2009 examinations were
 conducted after the "Madoff' scandal. The OIG found that after Bernard Madoff
 confessed to operating a $50 billion Ponzi scheme and the OIG issued a report of
 investigation regarding the failure of the SEC to uncover Bernard Madoffs Ponzi
 scheme, SEC examiners focused more acutely on custody of assets, conduded more joint
 examinations and were more aggressive in seeking records form unregistered firms.
 Unfortunately, the DIG investigation found that the 2005 Westridge examination was
 conducted under "pre-Madoff' procedures by examiners, who were aware of and had in
 their hands evidence of potential fraud, but did not take the basic steps necessary to
 investigate the matter further and, as with Madoff, a significant fraud was not uncovered
 at that time.


                                                12
     This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate or copy it without the Inspector General's
     approval.

             The OIG investigation also concluded that had the LARO referred their findings
     to the BRO and had a broker-dealer examination of WG Trading been conducted in 2005,
     the fraud would have likely been discovered. This finding was confirmed by both BRO
     broker-dealer examiners and the 2009 LARO examination team.

             The OIG also specifically investigated the allegation in -the anonymous complaint
         OCIE Supv. 4
     that                                     "instructed (and even bullied) examiners to not
     pursue certain red flags" in the 2009 examinations in an attempt to hide his failures in the
     2005 examination. While the OIG investigation did not find evidence substantiating the
     claimOCIE Supv. 4 instructed or bullied examiners to ignore "red flags" in the 2009
     examinations of Westridge and WG Trading that would have identified issues or areas
     that he himself failed to uncover in the 2005 Westridge examination or OCIE Supv. 4 directed
     substantive changes to the report's findings, the OIG did find that examiners were
     uncomfortable with OCIE Supv. 4             in the 2009 examinations and that this created an
                                                                        OCIE Supv. 4
     appearance of impropriety, which could have been avoided if                      recused from
     the 2009 examinations. In the course of its investigation, the OIG also found evidence
     that many LARO employees had significant concerns OCIE Supv. 4          management style in
-,   general. Yet, the OIG also found that there was little, if any, evidence that any action
I    was taken by management to resolve or even address these concerns. We found that
     many LARO employees were fearful to complain because of possible retaliation. The
     OIG did not substantiate the allegationOCIE Supv. 4 lied in previous testimony.

             We are recommending that the Chairman, Director orOCIE and the LARO
     Regional Director carefully review this ROI and share with LARO management the
     portions of this ROI that relate to the performance failures by those employees who still
     work at the SEC, so that appropriate action (which may include appropriate performance-
     based action) is taken, on an employee-by-employee basis, as appropriate. We are also
     specifically recommending that OCIE Supv. 4                       not be placed back in-a
     supervisory role in the LARO.

            We are further recommending that the LARO establish a staff recusal policy for
     examinations and that the LARO include, in its examination referral policy and
     procedures, a mechanism for tracking the outcome of an examination referral.

             Finally, we are recommending that the Chairman, the Director of OCIE and the
     LARO Regional Director take the necessary actions to establish appropriate mechanisms
     in the LARO to en~ure that employee feedback about supervisors is appropriately and
     sufficiently addressed so that LARO employees feel comfortable conveying feedback
     about their superiors without fear of retaliation.




                                                      13
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.                                       .

                                      Results of the Investigation

        I.         In 2005, the LARO Examination Team Failed to Conduct a Thorough and
                   Satisfactory Examination of Westridge Capital Management and Failed to
                   Follow up on Numerous Red Flags

                A. An Inexperienced Staffer was Assigned to Lead the 2005 Examination of
                   Westridge Capital Management

         The OIG investigation found that significant portions of the field work and the
 writing of the examination report for the 2005 LARO examination of Westridge were
 conducted by a nearly brand-new examiner. Former OCIE Empl. 3                                    was
 hired as a securities compliance examiner for the SEC's LARO right after                   PII

PII                 Former OCIE Empl. 3
                                        Testimony Tr. at 6. She was assigned as the examiner for
 the 2005 Westridge examination PII                                 after starting at the SEC. [d. at 9.
                                         Former OCIE Empl. 3
 During testimony with the OIG,                              described her role on the Westridge
 examination as the "junior examiner," but noted that she was "responsible for writing the
 report and doing basic reviews and fact checking while on the exam." [d. at 10.
               OCIE Supv. 5
                                  was Former OCIE Empl. 3 Branch Chief and the first level
 supervisor on the examination. !d. at 10. Former OCIE Empl. 3 describedOCIE
                                                                         5
                                                                             Supv.
                                                                                   role as being
 responsible for "[i]dentifying the proper risk areas, probing into things that perhaps as a
 junior and senior examiners, that we may have overlooked, making sure that the exam is
 conducted properly and training me as a junior examiner." [d. Although Former OCIE Empl. 3
                                                               OCIE
 rememberedOCIE
              Supv. 5 as participating in all the field work,Supv. 5 specifically recalled that he
 participated only in "portions ofthe field work, not [the] entire field work." [d. at 10-11;
OCIE
Supv. 5 Testimony Tr. at 11.
OCIE Supv. 4
               an accountant at that time, also played a role in the Westridge examination.
Former OCIE Empl. 3
                understood OCIE4
                                     Supv.
                                           was to be the PII                   and that he was
  "responsible for looking at the more complex aspects of the exam."Former OCIE Empl. 3
  Testimony Tr. at 10.OCIE5
                               Supv.
                                     testifiedOCIE Supv. 4 was brought on to "act as a lead examiner"
  because they "needed someone senior, some examiner with a lot more experience." OCIE               5
                                                                                                        Supv.


  Testimony Tr. at 13. However, in his testimony with the OIG,OCIE Supv. 4                   his role on
  the examination as relatively minot. OCIE Supv. 4                                 said that
  "[t]echnically,Former OCIE Empl. 3           was the lead" and that he was "assigned on a
  temporary basis" because he had "a week of down time" between examinations. [d. at
  13. He said he was involved in the "pre-exam prep" work and five days of the field
. work, but that he left the examination before the end of the field work and did not have a
  role in writing or reviewing the report. [d. at 13-14.

        Kevin Goodman ("Goodman") was the Assistant Regional Director on the
 examination. See cover page of Westridge Capital Management Investment Adviser
 Examination Report dated April 29, 2005 (2005 Westridge Examination Report) at
 Exhibit 20. Former OCIE Empl. 3 said Goodman was not on site at Westridge, but that OCIE
                                                                                     Supv. 5 would




                                                     14
      This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

      typically confer with him by telephone. Former OCIE Empl. 3 Testimony Tr. at 11. Former OCIE Empl. 3
      said she did not confer with Goodman until after the examination, when she was writing
      the report. Id.

               Although there were several examiners assigned to the Westridge examination,
      the OIG investigation found that most of the responsibility and workfell to Former OCIE Empl. 3
PII
                                    out of law school. Despite being the most junior member of the
            Former OCIE Empl. 3
      team,                     was the lead examiner and wrote the examination report. Her
      inexperience may have played a role in the team's failure to detect the ongoing fraud at
      Westridge and the team's failure to refer the examination for a follow-up broker-dealer
      examination.

               B. In Preparing for the 2005 Examination of Westridge, the LARO .
                  Examination Team Identified Red Flags in Westridge's Investment
                  Strategy and Structure

              The DIG Investigation found that in the process of engaging in preparation
      activities for the 2005 Westridge examination, there were obvious red flags about
      Westridge's operations that should have been scrutinized in the examination, particularly
      with regard to Westridge's complicated investment strategy. Westridge's investment
      strategy consisted of two components, the first component being related to investing in
      short-term government securities and indexed futures contracts, for which 10-15 percent
      of client assets were invested. 2005 Westridge Examination Report at 3. The second
      component was an index arbitrage strategy that was accomplished by investing the
      remaining 80-85 percent in Westridge'saffiliated broker-dealer, WG Trading. 2 Id.

              According to the 2005 Westridge Examination Report, Westridge clients became
      limited partners in WG Trading by purchasing limited partnership interests. Id. at 4.
      Because they were limited partners rather than customers, they were not subject to the
      margin requirements of Regulation T.3 Id. at 4. This allowed WG Trading to leverage up
      to 20 times the market value of each trade. Id.

             The examiners who conducted the 2005 Westridge examination acknowledged to
      the OIG that Westridge's investment structure was a red flag in and of itself, and
      "unusual." Former OCIE Empl. 3 referred to Westridge's arrangement as "highly questionable"



      2 WG Trading was operated as a pooled investment vehicle that used arbitrage transactions to "exploit the
      inefficiencies that might exist between the prices of index futures and the prices of the underlying
      securities." 2005 Westridge Examination Report at 3-4.

      J Federal Reserve Board's Regulation T, Credit by Brokers and Dealers, 12 C.F.R. §220, governs
      extension of credit by securities brokers and dealers, including all members of national securities
      exchanges. According to Regulation T, a customer may borrow only up to 50 percent of the purchase price
      of securities that can be purchased on margin. 12 C.F.R. §220.12(a).



                                                         15
           This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
           before disclosure to third parties. No redaction has been performed by the Office of Inspector
           General. Recipients of this report should not disseminate or copy it without the Inspector General's
           approval.

           and admitted that neither she nor the other examiners had ever seen something like it
           before, stating:

                                 I remember that the investment structure of Westridge
                                 Capital had to do with placing their clients as limited
                                 partners in the general partnership, which was WG Trading.
                                 And that was highly questionable and something that I
                                 certainly had never seen. And I don't believe OCIE Supv. 5 and
                                OCIE Supv. 4
                                             either had.

        Former OCIE Empl. 3
                               Testimony Tr. at 12-13.
                OCIE Supv. 4
                           described the novelty of Westridge's structure and the complexity of its
           trading strategy in the following exchange:

                                 Q:         Was there anything unusual or of concern about the
                                            structure of the way the operations were set up in
                                            connection with that exam?

                                 A:         .... the fact that it was an affiliated fund and it was
                                            not operated out of the same location was a little,
                                            probably different than normal. The strategy I would
                                            say would be the most interesting, you know, aspect
                                            or unusual aspect. It was the first time I had ever
                                            come across index arbitrage, and I had been there
                                            with the Commission for probably PII
                                      PII



OCIE Supv. 4
                Testimony Tr. at 17-18.

                   In addition to the investment structure, which the lARO examiners
          acknowledged was "questionable," the complex investment strategy combined with its
          goal of circumventing Regulation T, its unusually high leverage in which such a large
          percentage of investor assets were invested in an affiliated broker-dealer, should have
          been viewed as red flags as well. Furtnermore, with so much money flowing to an
          affiJiate, the examiners
                             .
                                    should have been 4alerted that there could be custody issues and
          that a custody analysis would be prudent.



          4 As discussed in further detail in Section III of this report, as further indication that the 2005 LARO
          examination team should have been alerted to obvious red flags very early on in their examination process,
          the OIG investigation found that a brief, cursory review of Westridge conducted in 2009 based upon
          information available to the 2005 examiners, determined that Westridge had numerous, significant red flags
          and risk factors that warranted immediate scrutiny and examination.



                                                                   16
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties: No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

         C. In Planning the Examination in 200S, the LARO Examination Team
            Reviewed a 2000 Examination Report, Which Contained a Custody
            Analysis and Initially Intended to Focus on Custody Issues

        In preparation for the 2005 Westridge examination, the LARD examination team
reviewed the examination report of the. previous examination of Westridge conducted by
LARD staff in 2000. 5 OCIE
                       Supv. 5 Testimony Tr. at 14. The 2000 examination report revealed

that the LARD examination team determined that Westridge had weak internal controls
and found performance disclosure issues, as well as other deficiencies. Westridge Capital
Management Investment Adviser Examination Report dated February 25, 2000 (2000
Westridge Examination Report) at 1, at Exhibit 21.

       In addition, the 2000 Westridge Examination Report identified specific concerns
regarding Westridge's ability to access client assets held by WG Ttading. [d. at 4. Based
upon these concerns, the examiners performed a custody analysis in 2000, although they
concluded that Westridge did not have custody of client assets invested in WG Trading.
[d.

         In the examination proposal for the 2005 Westridge examination, Former OCIE Empl. 3
stated, "In light of the fact that client assets may be heldin custody by Registrant's
affiliate, the examination will focus on custody issues which arise as a result of this
arrangement." Memorandum from Former OCIE Empl. 3          to WIC Supervisory Staff dated
February 10, 2005, at Exhibit 22. However, as described in further detail below, custody
was not a focus of the 2005 Westridge examination. In the 2005 examination report, the
short section that described custody appears to only refer to the 10-15 percent of client
assets invested in the index futures contracts and the unaffiliated brokerage firms that
held those assets. 2005 Westridge Examination Report at 6. There was no discussion in
the report of any custody analysis related to the 80-85 percent of investor assets invested
in WG Trading. 2005 Westridge Examination Report.

       When asked why the examination did not focus on the custody issues identified in
the examination proposal, Former OCIE Empl. 3 did not recall why the examiners changed course,
although she acknowledged -that custody was one of the issues that the examination team
was not able to "fully vet out." Former OCIE Empl. 3 Testimony Tr. at 36 OCIE Supv. 4 unable to
explain why the custody issue was not pursued in the 2005 examination, noting that it
"was not common" for" an examination proposal to be issued and the examination not to
focus on the items in the proposa1. 6 OCIE
                                        Supv. 4 Testimony Tr. at 22.




5 Kevin Goodman was the only overlapping member of both examination teams; he was the "Senior
Special Counsel" for the 2000 examination and the "Assistant Regional Director" on the 2005 examination.

6 As discussed further in Section III below, when an examination team returned to West ridge in 2009, that
team did review custody issues and determined that because Greenwood and Walsh were owners and
"supervised persons" of Westridge and "had access to all client funds that were invested in or passed
through WG Trading arid WGTI," they were considered to have had had custody of client assets.


                                                    17
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.



         D. Despite the Red Flags, a Satisfactory and Through Examination of
            Westridge was Not Conducted

        The 010 investigation found the LARa examination team failed to follow their
own examination proposal, and failed to follow up on the obvious red flags in
Westridge's structure, investment strategy and operations and instead narrowed the focus
of their examination, while failing to uncover the ongoing fraud.

                       1. The 2005 LARO Examination Team Ignored the Overwhelming
                          Majority of Client Assets Invested by Westridge

     . Although the 2005 Westridge examination proposal specifically stated that the
2005 Westridge examination would focus on custody issues, the 2005 LARa
examination team did not even conduct a perfunctory custody analysis. In addition" and
perhaps even more importantly, the 2005 Westridge examination team failed entirely to
conduct any analysis of the overwhelming majority of investors' assets (80-85 percent),
which were invested through the broker-dealer, WO Trading.

        As discussed above, Westridgehad a complicated, two-part investment strategy
with the first part involving the purchase and sale of future contracts in which 10-15
percent of client assets were invested. 2005 Westridge Examination Report at 3. The
second portion was an index arbitrage strategy that was accomplished by investing the
remaining 80-85 percent in Westridge's affiliated broker-dealer, WG Trading. [d.
        OCIE Supv. 5
                           acknowledged to the 010 that the LARO examination team
focused their examination on only the 10-15 percent of investor assets invested in futures
contracts and disregarded completely the 80-85 percent invested in WG Trading. OCIE
                                                                                  5
                                                                                      Supv.

Testimony Tr. at 33-34.
       OCIE Supv. 5
                            elaborated on"this point in the following exchange:

                       Q:   So in terms of understanding the strategy, wouldn't
                            one really need to look at WG Trading since there
                            was such a high percentage of -- inWG Trading and
                            such a low percentage everywhere else?

                       A:   Well, we did not -- as I said earlier, we considered the
                            -- just the 10 to 15 percent managed by the Westridge.
                            Those "are the assets managed -- assets under
                            management for Westridge.



Westridge Capital Management Investment Adviser Examination Report dated August 14,2009 (2009
Westridge Examination Report) at 40 at Exhibit 23.


                                                   18
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it without the Inspector General's
 approval.

 [d. at 34-35.

         When questioned as to why the examination decided not to examine any matters
 relating to the 80-85 percent of investments made through the broker-dealer, WG
 Trading, even after finding that the investment advisor, Westridge, played a relatively
 small role in the overall investment strategy, OCIE
                                                Supv. 5 responded simply that it was his

 "responsibility to conduct an investment advisor examination" of Westridge, not WG
 Trading. 7 [d. at 35-37.
           Former OCIE Empl. 3
                     also confirmed that the examination team limited their focus to the
 10-15 percent of client assets invested by Westridge and made no effort to examine the
 80-85 percent of assets invested through WG Trading, in the following exchange:

                        Q:       Was it your understanding either because of your
                                 work or what your supervisors told you that, say, the
                                 issue of the 15 Percent versus 85 Percent, that it was
                                 your focus in the Westridge Capital exam to look at
                                 the 15 Percent, not necessarily the 85 Percent since
                                 you were looking at Westridge and not WG Trading?

                        A:       I think that is a correct statement, yes.
Former OCIE Empl. 3
                      Testimony Tr. at 36-37.
                             Former OCIE Empl. 3
         Moreover,              acknowledged that during the examination, the
 examination team was "uncomfortable with the WG Trading activities" and even
 interviewed one of the principals ofWG Trading in an attempt to "gain more comfort
 with what was going on" with WG Trading. [d. at 37. She further acknowledged that the
 interview was not helpful and did not provide the comfort they were seeking. [d.

         Yet, instead of following up with more requests for information or further
 examining the matter, the DIG investigation found that the IARO examination team
 simply ignored the concerns about WG Trading and focused solely on the narrow issues
 relating to the 10-15 percent of invested assets. 8

                OCIE
 7  Although Supv. 5 testified he considered only the 10-15 percent to be assets managed by Westridge,
 Westridge clearly included the additional 80-85 percent that was invested in WG Trading when calculating
 its advertised assets under management and Westridge was paid an advisory fee on the full amount. The
 2005 Westridge Examination Report states the following: "The standard advisory fee is 0.25% per annum,
 based on assets under management.... Registrant includes the amount of client assets invested in WG
 Trading in its calculation of advisory fees." 2005 Westridge Examination Report at 5.
                                       Former OCIE
 8In testimony with the OIG, Empl. 3       indicated that there was increasing pressure at the LARO to get
examinations completed in a timely manner, stating, "There were -- there was definitely an awareness of
the numbers of exams that had to be completed, had been completed, still needed to be completed. Sort of
over the time that I worked at the SEC, the length of exams came under greater scrutiny." Former
                                                                                             3
                                                                                                 OCIE Empl.




                                                         19
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.

                       2. The Examination Team Took No Action to Verify that Funds
                          Were Invested in WG Trading, Notwithstanding Their Discovery
                          of a Lack of Due Diligence on the Part of Westridge

          The OIG investigation found that although the LARO examination team identified
  significant risks involving WG Trading, it made no effort to verify that funds were
  actually invested with WG Trading as promised by Westridge. Moreover, the record is
  devoid of evidence that any analysis was conducted to confirm Westridge's trading
  strategy, as it related to WG Trading.

         The only evidence of any analysis of Westridge's trading strategy is OCIE Supv. 5
 testimony that the LARO examination team looked at a copy of a: trade blotter, but only
 for the limited purpose of seeing if the stocks listed made up the S&P 500 index. OCIE Supv. 5
 Testimony Tr. at 27-28. OCIE
                          Supv. 5 told the OIG that the trade blotter was a "very thick, very

 long document" and because of that they could not "do much analysis other than just
 confirming those are actually the securities that make up the index." [d. at 28.
        OCIE
        Supv. 5                           en the team requested the trade blotter(s) from
                  LE
  Westridge's                             t                                               fy
                                            LE
  WG Trading's investments because the                                                      [d.
OCIE Supv.                      LE
5          acknowledged opening
  but could not articulate any further action taken to follow up on this alarming discovery.
  [d.

          The OIG investigation fou                                     mination team even
                                     LE
 considered the possibility that the                                     could have been used
 as evidence that Westridge failed to fulfill its fiduciary responsibility with regard to client
 assets, in violation of Section 206 of the Investment Advisors Act. 9 The 2009 Westridge
 Examination Report concluded that Westridge violated Section 206 of the Investment
 Advisers Act, specifically noting as evidence of the violation that none of the financial or
 trading data was being reviewed by Westridge. 2009 Westridge Examination Report at
 26-28. We found that the 2005 staff also knew that Westridge did not review financial or
 trading data and could have referred this information to Enforcement for a potential
 Section 206 case against Westridge in 2005. 10

 Testimony Tr. at 36. This fact may have motivated the 2005 examination staff to so narrowly focus their
 examination.

 9 Section 206 of the Investment Advisers Act of 1940 establishes a fiduciary standard of conduct for
 investment advisers. 15 U.S.c. § 80b-6 rule 206 [17 CFR 275.206] under the Investment Advisers Act of
 1940.

 10 The OIG made a similar finding in its Stanford investigation report. See Investigation of the SEC's
 Response to Concerns Regarding Robert Allen Stanford's Alleged Ponzi Scheme (OIG-526), issued March
 31,2010 (available on our web site at: http://wwW.sec.gov/news/studies/201O/oig-526.pdf). In that report,
 the OIG concluded that Enforcement could have potentially shut down the alleged fraudulent certificate of
 deposit sales had they filed a Section 206 case for failure to conduct any due diligence. Id. at 115.


                                                    20
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it witho.ut the Inspector General's
 approval.                                                                               '

         OCIE Supv. 4
                 admitted that in 2005, the LARO examination team took no action to
 determine if the investors' funds that were allegedly being funneled to WG Trading were
 actually invested in WG Trading as Westridge represented to its customers.OCIE Supv. 4
 Testimony Tr. at 69. He further noted that ifin 2005, they had "conducted what we do
 now in terms of our 2009 asset verification procedures, it would clearly require
 confirmation with the individual investors, as well, which would have allowed us to
 necessarily see a discrepancy between what was being represented to the investors and
 what was actually available in liquidating equity," thus potentially uncovering the fraud.
 [d. at 72.

                        3. The Examination Staff Identified Numerous Other Red Flags
                           During the 2005 Westridge Examination, but Failed to Follow-Up
                           Appropriately

                              a. !neffective Compliance Officer

         The 2005 LARO examination team identified numerous "red flags" during the
 course of the Westridge examination, which they noted inthe report. One of the most
 significant concerns identified related to the poor compliance culture at Westridge. The
 examination staff concluded that Westridge had an "ineffective" compliance program.
 2005 Westridge Examination Report at 8. They also concluded that Westridge "did not
 consider compliance with the federal securities laws to be a priority." /d. at 2.

            e noteworthy example was Westridge's appointment ofWGTC CCO
WGTC CCO
             as its Chief Compliance Officer ("CCO"). The LARO examination team
stated in the report that WGTC CCO had "no experience ensuring compliance with the
Adviser's Act" and had "not attended any compliance seminars in order to prepare
[herself] for her role as chief compliance officer." [d. at 9. The LARO examination team
elaborated on their concerns aboutWGTC CCO in a document they prepared entitled LE, EM
LE, EM




WGTC CCO
        "We doubt competency ofCCO, she does not have 40 Act experience ...
[C]ertainly does not have sufficient authority within the firm. " [d. at 0908. They further
noted, "CCO is also administrative assistant- does not have adequate stature in firm.
CCO was not allowed to go to compliance seminars blc too costly for firm." [d. at 0906.

        Internal examination documents reflect the significant concerns on the part of the
examiners with respect to WGTC CCO ability to effectively act as CCO for Westridge. In
testimony, the examiners further emphasized these concerns. Former OCIE Empl. 3 explained to
the OIG, "So seeing WGTC CCO        as CCO was shocking. I mean, she was basically the
                                                                           Former OCIE Empl. 3
office manager and had, it appeared, been dubbed with the CCO title."
                    OCIE
Testimony Tr. at 16.Supv. 4 expressed a similar assessment of WGTC CCO in his testimony with
the OIG, noting that the examiners "were asking a lot of questions about WGTC CCO
                                                                                                         :':


                                                  21
           This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
           before disclosure to third parties. No redaction has been performed by the Office of Inspector
           General. Recipients of this report should not disseminate or copy it without the Inspector General's
           approval.

           qualifications," and stating, "I do not believe she had any prior experience [in
           compliance.]OCIE
                        Supv. 4 Testimony Tr. at 25.

                                            WGTC CCO
                   The issues involving           lack of experience, training and stature and the
           "ineffective" compliance program should have been significant red flags for the
           examination staff. Although the examiners documented their concerns; noting that
, -I
           Westridge, a $1.3 billion company, had hired a completely inexperienced compliance
           officer and purportedly could not afford compliance seminars, these concerns did not
           trigger further scrutiny or examination.

                                     b. ADV Inaccuracies

                  The LARD examination team also stated in the 2005 examination report that they
          found "a myriad of inaccuracies" in Westridge's Form ADV.ll 2005 Westridge
          Examination Report at 9. The report noted 15 examples of inaccurate or incomplete
          information on the Form ADV; including failing to disclose that Westridge gave advice
          on interests in partnerships. Id. at 13. This lack of disclosure seems particularly
          egregious considering Westridge recommended that clients invest 80-85 percent of their
          funds in WG Trading as limited partners.

                  However, although noted in the examination report, these inaccuracies did not
                                         OCIE Supv. 5
          provoke any further scrutiny.                   stated that he was not concerned about
          this finding in the following exchange:

. i
                              Q:   All right. So what about that? Failure to disclose that
                                   registrant offers advice on interests and partnerships?
                                   Is that an item that is of concern --

                             A:    It was -- did not raise too much of a concern because
                                   it was one of the check-the-box response, I believe.
                                   Just did not check one of the box.
       OCIE Supv.
. I    5            Testimony Tr. at 42 .
  I,
                                            Former OCIE Empl. 3
                 When the OIG asked                           what she remembered about the Form
          ADV inaccuracies, she admitted that there were some substantive areas of concem with
          the ADV. Former OCIE Empl. 3 Testimony Tr. at 19. However, she attributed it to Westridge's
          compliance culture, which she dismissed as merely "sloppy." Id.




          11 Form ADV enables the SEC to register investment advisers. Every applicant for registration with the
          SEC as an adviser must file this form. See 17 C.F.R. § 275.203-1.


                                                                  22
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.                                           .

                               c. Advertising

        The 2005 examination also disclosed that W estridge's marketing materials
contained significant omissions and failed to clearly describe its investment strategy, yet
did not attach significance to these findings. The 2005 examination report stated,      .
"Registrant routinely failed to incorporate the requisite disclosures when presenting
materials to prospective and/or existing clients in one-on-one presentations." 2005
Westridge Examination Report at 10. This finding was also noted in the prior two
examinations conducted in 1993 and 2000. 12 Id. However, the examiners dismissed this
concern, finding in their report that the inadequacy of disclosures was an issue of
"carelessness rather than serious recidivism." /d. at 7.      .

         The LARO examination team also found that Westridge' s "marketing materials
frequently include[d] a description of its strategy which has the potential to leave even
.the most sophisticated investor confused regarding registrant's relationship with its
affiliates, WG Trading." Id. at 14. The LARO examination team became aware that this
concern was shared by others when Westridge produced to them correspondence from a
client that withdrew its money from Westridge. The LARO examination team found that
Sun Life Financial ("Sun Life") was a Westridge client and in 2002 began to question the
trading strategy employed by Westridge. See Sun Life E-mail From Genesis Marketing
Group to LE           dated March 22,2002, at Exhibit 25. Correspondence produced to
the 2005 examination team indicated that Sun Life did not understand the strategy and
was unclear as to whether the product was making money. Id. Ultimately, Sun Life
withdrew its investment. See Letter to ,Sun Life Financial from Paul Greenwood dated
April 29,2003, at Exhibit 26, confirming verbal receipt of Sun Life's request to
withdraw.
         Former OCIE Empl. 3
                    recalled the Sun Life correspondence and noted that Westridge's
"trading strategy was quite complex" and "difficult for [her] to understand." Former OCIE Empl. 3
Testimony Tr. at 23. She recalled that "it was something that [they] were trying to get a
hold on" and they "were questioning the understanding of the investors," noting that
"finding communication like [the Sun Life e-mail]sortofaffirmedourconcern ... Id.at
23-24. However, there was no follow-up on this concern in the examination.

                               d. E-mail Retention

       The 2005 examination report also uncovered an extremely lax e-mail policy at
Westridge. 2005 Westridge Examination Report at 14. The LARD examination team
found that Westridge's stated policy was to delete all e-mails after a hardcopy was

12 In 1993, an LARO Investment Advisor examination team conducted an examination of Westridge
finding the following violations: 1) misleading performance advertising, 2) failure to maintain books and
records, 3) inadequate policy regarding use of insider information, 4) inadequate disclosures regarding
conflicts of interest, 5) late filing of Form 13F, 6) failure to make annual offer of Form ADV to clients, 7)
having custody and possession of client assets without complying with custody rules, and 8) inadequate
controls regarding client fees. 2000 Westridge Examination Report at 4.


                                                      23
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate Or copy it without the Inspector General's
    approval.

    printed. [d. As a result, the examiners were unable to review e-mail documentation as
    part of their examination, which is often critical in examining a firm, particularly where
    there is the possibility of fraud.
                         OCIE
            However, Supv. 5 in his testimony with the DIG, did not attach much significance to
    this finding, in the following exchange:
i
                    Q:          Is that a concern that perhaps e-mails are being
                                deleted?

                    A:          Investment adviser books and record rule does not
                                specifically require e-mail to be -- e-mail is not
                                required -- not necessarily part of the books and
                                record. If e-mail contains certain information
                                concerning client correspondence and certain
                                recommendation is made by the adviser, it could be
                                so --

                    Q:      So -- so if you have an entity which clearly doesn't
                            seem to have compliance as a priority, hires a chief
                            compliance officer who is also an administrative
                            assistant and they don't even want to pay for her to go
                            to compliance conferences, and at the same time there
                            are potentially e-mails that are deleted, you have kind
                            of a Byzantine structure that's difficult to understand,
                            it turns out the entity you are looking at really had
                            played a very small role in the operations, wouldn't
                            these all add up to a significant concern?

                    A:      No, because we were looking at the Westridge
                            operations, and we understood Westridge' s role. And
                            we under- -- we understood their role was playing
                            trading in futures and cash management. E-mails--
                            we didn't -- our examiners -- examination staff did
                            not begin to -- it was relatively recent, not long ago,
                            just one or two years before this exam, we started to
                            request e-mails; and that was -- I don't think we
                            requested e-mails prior to that. It was during the
                            market timing scandal- I don't know if you recall
                            that -- that's the first time we actually started
                            requesting e-mails. And there were -- a lot of
                            advisers were -- there was no specific whether e-mails
                            are supposed to be kept by the advisers or not. So
                            keeping -- so somebody -- you know, and there's no
                            clear guidance on what -- on the adviser rule what e-


                                                       24
          This document is subject to the provisions of the Privacy Act of1974, and may require redaction
          before disclosure to third parties. No redaction has been performed by the Office of Inspector
          General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
          approval.

                                          mails should be kept and that cannot be kept. So it is
                                          not - it's not - it's not clear as to whether these e-
                                          mails are required record. So -- and Mr. Carter
                                          appears to be an older gentleman, and he did not
                                          appear sophisticated with the computer, and so when
                                          we requested certain documents, they didn't know
                                          how to burn a CD. So we -- the impression we
                                          received is perhaps they don't - they're just not
                                          technology savvy.
     OCIE Supv. 5
                    Testimony Tr. at 46-47.
                    Former OCIE Empl. 3
                             also was not disturbed by the lack of electronic e-mail and said it was
          not uncommon to find registrants with only printed copies of e-mail. Former OCIE Empl. 3
          Testimony Tr. at 20. However, she did acknowledge there was no way of confirming that
          they were reviewing all the e-mails or that all e-mails were maintained as stated in tJ.:!e
          Westridge policy. Id.

                                  4. Upon Review of the Westridge Report, Senior BRO Examiners
                                     Concluded that There Were Numerous Red Flags Uncovered
                                     During the 2005 Westridge Examination That Required Follow-
                                     Up

                 Two senior members of the Boston Regional Office ("BRO") examination staff,
          Associate Regional Director Lucile Corkery ("Corkery") and OCIE Supv. 2
                                         reviewed the 2005 Westridge report in the course of the
          OIG investigation and concluded that there were significant red flags identified in the
          examination that required follow-Up.13

                 Corkery, the BRa's Associate Regional Director who oversees the examination
          program for the BRO, was asked specifically about the issues identified by the 2005
          LARa examination team in the Westridge examination in the following exchange:

                                  Q:      Okay. All righ~. Let me ask you a couple of
                                          questions just generally based on your knowledge of
                                          investment advisor exams or by virtue of your
                                          position at least in the last several years. If one were
                                          to do an examination and find that the registrant did
                                          not consider compliance with the federal security



         13 The OIG questioned members of the BRO staff about whether they received a referral concerning
         West ridge or WG Trading and whether they would have conduCted an examination of WG Trading if they.
         had received a referral. During the course of that testimony, members of the BRO staff made observations
         about the findings in the 2005 Westridge Examination Report.
.i


                                                                  25
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

                                laws to be apriority, would that be a red flag or a
                                cause for concern?

                           A:   Yes, it would.'

                           Q:   What about where they found in a review of a
                                registrants form ADV a myriad of inaccuracies,
                                would that be a cause or red flag for concern?

                           A:   Yes.

                           Q:   Particularly that it doesn't disclose that the registrant
                                offers advice on interests and partnerships that
                                inaccurately discloses thatthe registrant used short
                                sales in its investment strategies, when, in fact, the
                                broker-dealer conducts short sales, and gives
                                inaccurate information for index arbitrage? Would
. 1
                                you consider that to be significant inaccuracies or
  i
  I                             more technical inaccuracies?

                           A:   1'd consider the combination significant.

                           Q:   What about if you found that electronic e-mail was
                                deleted and you were uncertain whether you would
                                get all the electronic e-mails? Would that be a cause
                                of concern or a red flag'in an exam?

                           A:   Yes.

      Corkery Testimony Tr. at 15-16.
            OCIE Supv. 2
                                                              for the BRO broker-dealer examination
      program, concurred in the following exchange:

                           Q:   Is it fair to say that in the [2005 Westridge] IA exam
                                the IA examiners jdentified red flags, areas of concern
                                in their examination?

                           A:   Yes, yes, I think that there were areas of legitimate
                                concern.

                           Q:   So, for example, one of the things they identified was
                                the registrant did not consider compliance with the
                                federal security laws to be a priority. Would that be
                                something that is a red flag or a concern?


                                                        26
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.



                           A:    That's a concern.

                                           *                    *                    *
                           Q:    Here's a sentence from the 2005 exam: "During the
                                 staff's review of registrants form ADV, a myriad of
                                 inaccuracies were noted." What about inaccuracies in
                                 ADV? Is that something that's a cause for concern?

                           A:    Well--

                           Q:    Particularly if there's numerous inaccuracies?

                           A:    I think if it's pervasive enough and if they're material
                                 I think it would be a cause for concern, you know,
                                 depending on the nature. You know, if it's a wrong
                                 address number or something, if it's more substantive.

                           Q:   In this case there was a failure to disclose that
                                registrant offers advice on interests and partnership;
                                inaccurately disclosed that investors use short sales in.
                                their investor strategies. There was a failure to
                                disclose about the utilization of index arbitrage.
                                Would you consider those types of inaccuracies to be
                                substantive and material?

                           A:   I would.

··1                                        *                    *                    *
  1
  !
                           Q;   What about the fact that they identified in the 2005
                                exam that electronic e-mail could be deleted after a
                                hard copy is printed, so they didn't know necessarily
                                that they got the entirety of the electronic e-mails.Is
                                that also a cause for concern?

                           A:   Yes.
      OCIE Supv. 2
                     Testimony Tr. at 26-28.




                                                          27
            This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
            before disclosure to third parties. No redaction has been performed by the Office of Inspector
            General. Recipients of this report should not disseminate or copy it without the Inspector General's
            approval.

                             5. Despite the Numerous and Obvious Red Flags Identified During
                                the 2005 Examination, the 2005 LARO Examination Team
                                Actually Lowered Westridge's Risk Rating After the Examination

                   The 2005 Westridge examination report stated that the underlying reason for
            conducting the examination was that Westridge was deemed to be a "high risk advisor."
-'1
• r         2005 Westridge Examination Report at 1. The OIG investigation found that after
            conducting the examination, the 2005 LARO examination team actually lowered
            Westridge's risk rating to "risk group 2 - medium risk" despite the red flags it
            encountered.

                      The 2005 Westridge examination report justified the decision to downgrade
              Westridge's risk rating as follows: LE, EM
         LE, EM
                              do not appear to involve a high degree of risk." [d. at 2. However, the
              report did not elaborate on this determination and on the very same page of the report
              stated that, "there are significant risks associated with the operations ofWG Trading" in
              which Westridge's clients' funds were being primarily invested. [d.

                       The lowering of Westridge's risk rating is particularly curious since, as discussed
           below in Section III, experienced LARO examiner OCIE Supv. 10
           OCIE Supv. 10
                             determined based upon only a brief and cursory review that Westridge was
                               OCIE Supv. 10
           a high risk firm.                 explained as follOws in her testimony:

                            The report basically placed this registrant, Westridge, into a
    ,!                      risk group two which basically means medium risk. What
j
                            was odd to me is that the report indicated that "the
                            investment strategy and implementation do not involve a
                            high degree of risk." That's a quote from the report. ..

                            I didn't agree with a few of the sentences in the
                            examination report, sentences that indicated that it was a
                            low-risk strategy, sentences that indicated, you know, that -
                            - like the investment strategy did not involve a high degree
                            of risk, and I couldn't figure out where that was coming
                            from because the investment strategy as I was reading it, as
                            it was laid out in the report, didn't make any sense to me.
                            So, I didn't see how that could be a conclusion.
          OCIE Supv. 10
                          Testimony Tr. at 24,30-31.
                                                                                                 OCIE
                                                                                                 Supv. 4
                   When questioned about the decision to lower Westridge's risk rating       stated he
                                                         OCIE
           did not know why the risk rating was lowered.Supv. 4 Testimony Tr. at 27-28. He also
           acknowledged that in his view, there were significant risks associated with the operations
           of WG Trading. [d. at 29.



                                                            28
          This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
          before disclosure to third parties. No redaction has been performed by the Office of Inspector
          General. Recipients of this report should not disseminate or copy it without the Inspector General's
          approval.

              II.       Although the 2005 LARO Examination Team Made a Decision to Refer
                        Their Findings to the BRO for an Examination of WG Trading, the
                        Referral Was Never Made and No Examination was Conducted

                     A. Decision to Make a Referral

                 The 2005 LARa examination team, upon concluding their examination, had
         enough concerns about the operations at WG Trading that they decided to recommend
         that the BRa conduct a broker-dealer examination of WG Trading. 2005 Westridge
         Examination Report at 2,3, 14. The examination team decided to refer the examination
         to Boston, rather than conduct the WG Trading examination themselves, because of
         geographical proximity, as WG Trading was located iIi Connecticut, which is in the
         Boston region. OCIE Empl. 4 Testimony Tr. at 10-13. According to OCIE
                                                                           4
                                                                               Supv.
                                                                                     that time frame it
         would have been highly unusual for examiners from another regional office to go conduct
         exams of a firm that was covered by another regional office ... [T]he standard protocol
         would be to ask [Boston] to conduct the examination of that particular entity." OCIE Supv. 4
         Testimony Tr. at 47.

                  Several places in the 2005 Westridge Examination report, the LARO examination
          team noted its intention to refer its report to the BRO for an examination of WG Trading.
          Under the heading "Actions Taken" the examination team indicated that it had "referred
          the matter concerning Registrant's clients investing in WG Trading as a pooled
          investment vehicle to the Boston District Office." 2005 Westridge Examination Report
        . at 14. In addition, on page three of the report, the staff noted that WG Trading had not
          been examined since 1995 and stated, "[T]he staff recommends that the Commission's
          Boston District Office conduct an examination ofWG Trading." Id. at 3.

                      The OIG investigation found that all members of the 2005 examination staff
          generally believed that a broker.;.dealer examination.was warranted. Examiner
        Former OCIE Empl. 3
    I
    I
                            called the operations at WG Trading "completely questionable" and said
.   I
!I        "that is why the referral was made." Former OCIE Empl. 3 Testimony Tr. at 24-25. She also noted,
          "what we were able to see of the relationship between Westridge and WGTrading was
          not ordinary and not something that we were able to confirm from the records at
           Westridge." Id. at 14.

                    OCIE Supv. 5
                                      also testified that because the Westridge examination team
         "couldn't do a lot of analysis" to verify that WG Trading was actually implementing the
         strategy it was representing and because Westridge was not verifying the strategy either,
         "perhaps WG Trading should be examined."OCIE     Supv. 5 Testimony Tr. at 28. OCIE Supv. 4
                       also thought a broker-dealer examination of WG Trading was needed, stating
         that "given the strategy that they were operating and the way they were operating and the
         fact that it was a broker-dealer that was also a hedge fund, I would have thought an
         examination was appropriate."OCIESupv. 4 Testimony Tr. at 31.




                                                          29
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.

                                                                                       OCIE Empl. 4
             Prior to making the referral decision, Former OCIE Empl. 3 met with
OCIE Empl. 4                                                      OCIE Empl. 4
                     LARO's PII                                                Testimony Tr. at 10.
OCIE Empl. 4                           Former OCIE Empl. 3
                said he concurred with                     and was, "convinced that this should go to
  Boston." Id. . at 13-14. He said he concluded that because WG Trading had not been
  examined in ten years and because they were doing a "sophisticated business and a very
  large one," they should be examined. Id.

     OCIE Empl. 4
                                had a different recollection of the 2005 examination staff s opinions on
  whether.a referral was appropriate. OCIE Empl. 4              testified that he believed that Former OCIE Empl. 3
                                                                                            Former OCIE Empl. 3
  supervisors did not have the same level of concern about WG Trading as                                          Id.
  at 21-22. In an e-mail to LARO Regional Director Rosalind Tyson in February 2009,
 OCIE Empl. 4
                    also stated, "I'm not totally shocked that there is no evidence that the referral
  was made to Boston. I think the IA supervisors wanted to placate Former OCIE Empl. 3                          but
  they weren't so eagerto carry out a recommendation from a BD staff member." E-mail
  to Rosalind Tyson from OCIE Empl. 4                    dated February 27, 2009 at Exhibit 27. In
                   OCIE Empl. 4
  testimony,                       elaborated on this e-mail, stating, that he "could sense that
Former OCIE Empl. 3
                         was - Former OCIE Empl. 3 had some concerns, but the IA -- her IA supervisors
  either totally relied on her or -- or didn't have the same level of concern that' she had."
 OCIE Empl. 4
                   Testimony Tr. at 21. OCIE Empl. 4 also noted that "between the BD and IA staff,
  there [was] not always complete teamwork. There's a level of competition between the
  two groups." Id. at 25. OCIE Empl. 4             said he thought that lack of teamwork may have been
  the reason Former OCIE Empl. 3 supervisors were not "too eager" to refer the examination. Id. at
  24.

        Whether because of "lack of teamwork," or a faulty referral process, as discussed
 below, the OIG investigation found the referral never occurred.

            B. Although the 2005 Examination Report Stated that the 2005 LARO
               Examination Team Made a Referral, There is No Evidence a Referral
               Occurred

                        1. No Recollection of Actually Sending the Referral

         The .DIG investigation found that none of the members of the 2005 LARO.
 examination team could recall actually referring the matter to the BRO. Former OCIE Empl. 3
 stated she had some memory of making a telephone call to another office for a referral,
 but did not remember if the                  olved Westridge. E-mail dated February 25, 2009
                                 OCIE Supv. 5
 from Former OCIE Empl. 3     to               at Exhibit 28. She did, however, have a specific
 recollection of contacting LARO Enforcement staff attorney Enf. Empl. 1          about
 Westridge because one of the investors in Westridge was involved with an Enforcement
 action on which Enf. Empl. 1 was working. Id.
        Former OCIE Empl. 3
                   further elaborated on her recollections during testimony in the
 following exchange:



                                                         30
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients of this report should not disseminate or copy it without the Inspector General's
   approval.

                         Q:       What do you think happened?

                         A:         My sort of operating technique would be to speak
                                    with [Assistant Regional Director] Kevin [Goodman].
                                    This obviously then went through OCIE Empl. 4           If
                                    I wrote in the report and signed off on it that I made
                                    the referral, I would expect that I had talked to either
                               OCIE Empl. 4
                                            or Kevin to get a contact name. And it would
                                    have been somebody not my - it wouldn't be an
                                    examiner. It would be a branch chiefOr an [Associate
                                   Regional Director] or someone in the Boston office
                                    who I would call. Andthe calls were usually "Okay.
                                    Great. Send me the report," or "I'll mark that in the
                                    file. Next time we go out there, we'll take a look at
                                    things."

                        . Q:      But you don't have any recollection of sending a copy
                                  of the report --

                        A:        No.

                        Q:        the IA 2005 Westridge report to Boston.

                        A:        No.

                        Q:        And you don't have a specific recollection of having a
                                  phone call about Westridge--

                        A:        No.

                        Q:        -- with anybody at Boston.

                        A:        Not specifically. I do -- I definitely remember
                                  making a referral for an exam-- it would have been
                                  earlier on in my time at the SEC as opposed to closer
                                  to the time I departed -- and making the phone call.
                                  And it's likely that it's Westridge but --

                        Q:        But you don't know for sure.

                        A:        No.
Former OCIE Empl. 3
                      Testimony Tr. at 30-31.




                                                           31
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

      OCIE Supv. 4
               testified that no one remembered making the referral, stating, "my recollection
is that OCIE Supv. 5     did not have a recollection of making the referral. Kevin Goodman
did not have a recollection of making the referral; andFormer OCIE Empl. 3     had indicated
she remembers making a referral but cannot remember whether or not it was a referral
related to this particular examination."OCIESupv. 4 Testimony Tr. at 32.



                        2. No Record of a Referral

        In February 2009, when NYRO enforcement staff sought approval for the
emergency action against Westridge and WG Trading, SEC Commissioner Elisse Walter
asked questions about whether there were previous examinations of Westridge and WG
Trading and expressed concerns about what those examinations may have revealed. E-
mail from lames Clarkson to David Bergers et. aI., dated February 26, 2009 at Exhibit
29. In response, efforts were made to locate and review examinatioI.l reports concerning
Westridge and WG Trading and it was discovered that WG Trading had not been
examined, despite the recommendation in the 2005 Westridge Examination Report, and.
that neither the LARO nor the BRO could confirm the recommendation was. conveyed to
the BRO. Id.

         The OIG found that the BRO conducted a thorough search of staff e-mails.using
their own information technology staff and the OIT staff at SEC headquarters and found
no e-mails referencing Westridge or WG Trading. 14 The BRO also conducted interviews
of all relevant staff members and searched paper files and found no one who received or
became aware of a referral from the LARO regarding WG Trading at that time. David
Bergers ("Bergers"), Regional Director for the BRO, described the BRO's exhaustive
search for evidence of a referral:

                         What I recall is that we wanted to make sure that we were
                         searching the name of anyone that seemed to be a possible
                         recipient of a referral. And so -- and we also wanted to
                         make sure the search was as broad as possible. So we came
                         up with a number of different words for searching both the
                         entity -- and you can see here that we asked them to search
                         for Westridge, WG Trading, with periods, without period,
                     Former OCIE Empl. 3
                                                might have been a name associated.
                         Maybe that was the name of a person out in LA...

                       .. .And so I think there had been some contact with LA and
                       that the LA office said that they believed someone had
                       talked to either a branch chief or an assistant at the time.
                       And so what we did is we tried to make sure that we had

     SEC Empl. 2
14                                                      for the BRO conducted the e-mail searches for the
BRO. SEC
      Empl. 2 Testimony Tr. at 4, 6. SEC
                                     2
                                         Empl.
                                               said he was confident in the mechanism he used for the search
and, "nothing turned up." [d. at 8.


                                                     32
            This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
            before disclosure to third parties. No redaction has been performed by the Office ofinspector
            General. Recipients of this report should not disseminate or copy it without the Inspector General's
            approval. .

                              the name of every broker-
                                                            OCIE Supv. 3

                             OCIE Supv. 7, OCIE Supv. 2


                                       and [Associate Regional Director] Lucy Corkery,
                              who was the assistant at the time. And we also added some
                              other names.
                            Former SEC Supv. 1
                                                                                  was an
                              assistant for the investment advisor program, but in the past
                              he had responsibilities for the broker-dealer program as
                              well. Her name is not here, but I believe we also ended up
                              including SEC Supv. 2                                   as
                              another assistant who was not really involved with the
                              broker-dealer program, but we tried to -- we also included
                              my name which was initially spelled incorrectly, and then
                              [former Boston Regional Director] Walter [Ricciardi]'s
                              name on the chance that this could have corne in to anyone
.    ,,                       who had some kind of authority .
      I
                              ... We went to Washington for some e-mails, restored
                              some e-mails, and even then there were periods missing but
                              we got all the e-mails that we could to try to find any
                              reference to a referral.

            Bergers Testimony Tr. at 15-16. 15

                    The OIG conducted its own e-mail search as part of this investigation and found
            no evidence of a referral. This' search uncovered no e-mails between the LARO and the
            BRO regarding Westridge and no internal LARO e-mails discussing a referral to BRO
            amongst the LARO staff. The only e-mail indicating any passing of substantive
            information about Westridge outside the LARD examination unit was a May 3, 2005 e-
            mail chain between Former OCIE Empl. 3   and Enf. Empl. 1             an Enforcement staff attorney
..   ,,     in the LARO. See E-mail dated May 3, 2005 from            Former OCIE Empl. 3
                                                                                                     to Enf. Empl. 1
                                                                             Former OCIE  Empl. 3
            attached as Exhibit 32. In her initial e-mail to Enf. Empl. 1                         attached the 2005
                                                                                        Enf. Empl. 1
            Westridge examination report and wrote that she was sending                              a copy of the
            examination report "with an abundance of caution" to letEnf. Empl. 1 know that San Diego
            County was one of Westridge's clients. Id. In a follow-up e-mail, Former OCIE Empl. 3 wrote:

            15 An additional search was conducted by LARa management who had the. SEC's Office ofInformation
            Technology ("OIT") perfonn a search of LARa staffe-maik See e-mail dated February 26, 2009 from
          SEC Empl. 1                            to RosalindTyson at Exhibit 30. OIT's search of LARa e-mails found
            no indication that a message was sent to Boston in 2005 regarding Westridge or WG Trading. Id. OCIE
            headquarters also searched its records for any mention of a referral and found nothing. See e-mail dated
            February 27; 2009 from OCIE Associate Director/Chief Counsel John Walsh to LARa Regional Director
            Rosalind Tyson at Exhibit 31.



                                                               33
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients of this report should not disseminate or copy it without the Inspector General's
   approval.

   "There is no referral to Enforcement, nor any serious findings. We just wanted to make
   you aware of the investment of San Diego County in case it correlated with your
   Enforcement case regarding the City of San Diego." [d. There was no reference to a
   referral to Boston in the e-mail to Bowers.

              The OIG also interviewed OCIE Supv. 2 who was PII
 PII
             in the BRO in 2005, and who testified that he did not receive a referral and did not
   recall ever speaking toFormer OCIE Empl. 3 about a referral. OCIE Supv. 2 Testimony Tr. at 18.
OCIE Supv. 2
               further testified that he spoke with his supervisor, Associate Regional Director
   Corkery, the other OCIE Supv. 7 and OCIE Supv. 3
   as well asSEC Supv. 2                                    , and no one had any recollection of a
   referral from LARO about WG Trading. [d. at 19. Corkery also testified that she did not
   recall anyone contacting her about Westridge or WG Trading in 2005.· [d.

           Finally, the OIG interviewed former BRO Former SEC Supv. 1
                                                                           Former
                  because there were incomplete e-mail records for SEC     Supv. 1
                                                                                   for the relevant
   time periods.Former
                Supv. 1
                        SEC
                            stated that he did not recallFormer
                                                           receiving
                                                                SEC
                                                                     a referral  about Westridge or
   WG Trading and had not heard of either entity Supv. 1 Testimony Tr. at 11. He also said
   he did not remember getting a call from Former OCIE Empl. 3 and said her name was not familiar
   to him. [d. at 17.

            In addition to finding no written evidence of a referral, the OIG investigation also
   found the consensus among the examination staff was that even if a referral was made
   orally, rather than through an e-mail or written document, there would be some
   documentation somewhere referencing the referral, and likely a documentary record of
   the report being provided together with the referral.
          OCIE Supv. 4
                                     testified that a copy of the report would have been sent with
  a telephone referral: "I believe the standard protocol or most likely that the report would
                                                        OCIE
  have been provided as a follow-up to any call. Supv. 4 Testimony Tr. at 32.OCIE   Supv. 4 also said

  that in his experience the Assistant Director would make the referral, not the examiner.
  [d. at 33. Former OCIE Empl. 3 immediate supervisor, OCIE
                                                        Supv. 5 stated that if he were to make a
  referral, he would .send a copy of the report: "to help the broker-dealer folks to
  understand the operations and concerns that we made." OCIE       Supv. 5 Testimony Tr. at 31.


         OCIE Empl. 4
                    who consulted with Former OCIE Empl. 3 on the Westridge referral, also
  thought, "it would be natural" to send a copy of the report with a referral. OCIE Empl. 4
  Testimony Tr. at 18. He further stated he could not "envision a scenario" where someone
  would refer an examination and not send the report. [d. at 19. He noted that on the
  receiving end, he would "at a minimum" ask for a copy ofthe report. [d.

         Regional Director Bergers concurred that even if a referral was made by
  telephone, there would be some follow-up where the report was forwarded to the
  appropriate office. Bergers Testimony Tr. at 18. He noted that in order to conduct the
  examination, the receiving office would, of course, require a copy of the report. [d.


                                                   34
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
  before disclosure to third parties. No redaction has been performed by the Office of Inspector
  General. Recipients of this report should not disseminate or copy it without the Inspector General's
  approval.
      OCIE Supv. 2
                                                 concluded, "I believe it's unlikely [that there
  actually was a referral] because I think that if there had been a phone call it would be
  likely that it would be referred to somewhere in the e-mail somewhere. And someone
  would -- could have made a phone call, and I suppose it could have ended at that, but I
  think it's highly unlikely .... I think there would be some reference somewhere." Id. at
  24.
         Former OCIE Empl. 3
                      noted in her testimony that there was an electronic database
  maintained by OCIE where examination reports were posted after an examination,
  although she admitted that she did not know exactly who had access to the database, and.
  there was no indication that Former OCIE Empl. 3 referred anyone in the BRO to the fact that she .
                                                                             Former OCIE Empl. 3
  was placing the 2005 Westridge examination report in the database.
  Testimony Tr. at 43.

         Thus, the OIG investigation concludes based upon the lack of written evidence or
  record of a referral of the 2005 Westridge examination report from the LARO to the
  BRO, and no e-mail or other documentation referencing such a· referral either in the
  LARO or the BRO, and no record of the examination report being sent to the BRO, that
  the 2005 LARO examination team never actually referred the findings in the 2005
  Westridge report to the BRO.

                       3. The Lack of Protocols for Referrals or Follow-up

         The OIG investigation further found that in the timeframe of the 2005 Westridge
  examination in the LARO, there were no policies or protocols that governed the referral
  of examination findings and no instructions on how a referral was to be made.

          Associate Regional Director for Regulation in the LARO Martin Murphy
  acknowledged the lack of referral policies at the LARO at that time. Murphy Testimony
  Tr. at 33. Likewise, LARO Regional Director Rosalind Tyson admitted that "[a]t that
  time, our referral protocol was very informal." Tyson Testimony Tr. at 21.

             In addition to there being no referral policy at the LARO, there was no procedure
   for following up on a referral and in fact, although the 2005 Westridge examination
   report referenced that the findings were being referred to the BRO, no one on the LARO
   examination team followed-up to confirm that a referral had been made, as explained by
OCIE Supv. 4
                             in the following exchange:

                       Q:      All right. But in the 2005 time frame, when a referral
                               would be made by the L.A. Office to another office, •
                               would there be normally follow-up by the L.A. Office
                               to find out whether the exam occurred, what
                               happened in the exam?

                      A:       Typically, no.


                                                     35
                   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
                   before disclosure to third parties. No redaction has been performed by the Office of Inspector
                   General. Recipients of this report should not disseminate or copy it without the Inspector General's
                   approval.



                                        Q:      How corne?

                                        A:     From a supervisory standpoint, I don't quite know.
                                               From the examiner's standpoint and my experience, if
                                               we referred something, we provided a memo or
                                               referral along with any supporting documentation to
                                               the other office and it would be up to the other office
                                               to determine what they wanted to do in regard to that
                                               particular referral or recommendation. That's should
                                               be the--

                                        Q:     But wouldn't you want to know what they did --

                                        A:     That would have been their independent decision.
  }

  I                                            They have their own supervisory structure, their own
  J .                                          assessment procedures, and they would have made
                                               that determination on their own.

                                        Q:     But would you want to know what they did, what they
                                               found? I mean, you were referring it for a reason,
                                               because there was a concern.

                                        A:     Like! said, I couldn't speak to, as a supervisor on this
                                               exam. I could not speak to that. As an examiner on
                                               the exam, I was doing approximately ten to 16 exams
                                               a year . You know, you're going from one exam to the
                                               next. You have three or four open exams. If it's
                                               disposed of, you've made the recommendation to the
                                               other office, to the proper person, you know, that
. I                                            would pretty much have closed that action .
  !
        OCIE Supv. 4

                       Testimony Tr. at 41-42.
                         Former OCIE Empl. 3
                                               confirmed that she too would not have followed-up on a referral as
                   follows:

                                        Q:     When you work on an exam and you look at the
                                               investment advisory side and you find issues that in
                                               this case, you decided it was necessary to have a
                                               referral to have the WG Trading broker-dealer side
                                               looked at, would you follow up normally to see what
                                               happened with that referral?




                                                                      36
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients of this report should not disseminate or copy it without the Inspector General's
   approval.

                        A:    No, that would not have been my practice. Since I
                              was contacting somebody senior in another office, in
                              the Boston office in this example, it wouldn't -- I
                              wouldn't have felt that it was my place to call up
                              some other supervisor and say, "Have you followed
                              up on that?"

                        Q:    So you never knew whether the broker-dealer exam
                              had occurred or what happened.

                        A:    No .
Former OCIE Empl. 3
                      Testimony Tr. at 38.

         Thus, even though the entire 2005 LARO examination team decided that it was
  appropriate to refer their findings relating to Westridge for an examination of WG
  Trading, the OIG investigation found no evidence that the LARO had actually referred
  the matter or that anyone in the LARO followed-up or inquired as to whether the BRO
  received the referral, conducted an examination or found any fraud.l~

         III. If a Satisfactory and Thorough Examination of Westridge had Been
              Conducted, the Fraud May Have Been Uncovered in 2005

              A. An Experienced Examiner and Branch Chief, After Just a Couple of Days
                 of Researching Westridge, Determined in 2009 that Westridge was a High
                 Risk Firm that Should be Placed at the Top of an Inspection List

          The OIG investigation found that in 2009, a brief, cursory review of Westridge
  based upon information available to the 2005 examination team, determined that
  Westridge had numerous, significant red flags and risk factors that warranted immediate
  scrutiny and examination.
                                     LE, EM

LE, EM

LE, EM                                  OCIE Supv. 10
                                                Testimony Tr. at 22. Since there were six
  branch chiefs in the IA examination group at the LARO at that time, each
                                                                               PII
        ed one advisOr. [d. at 23. OCIE Supv. 10 an experienced examiner and
PII
        conducted the review of Westridge. [d. OCIE Supv. 10              what she termed a
                                                       LE, EM
  "pre-exam type review" that included filling out a

  16 In March 2009, the LARO created a formal referral policy. See Memorandum Dated March 5, 2009
  from Martin Murphy to All Supervisory Exam Staff at Exhibit 33. The policy states that LE, EM
LE, EM




                                                        37
        This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
        before disclosure to third parties. No redaction has been performed by the Office of Inspector
        General. Recipients of this report should not disseminate or copy it without the Inspector General's
        approval.

        reading the 2005 Westridge examination report, and checking different databases. [d.
        With just a couple of days' worth of research, OCIE Supv. 10 concluded that Westridge was a
        high risk firm with many issues that needed follow-up. [d. at 25,34.
                  OCIE Supv. 10
                             provided the OIG with the LE, EM                                   she
                                                               LE, EM
         filled out during her review of Vlestridge. In
      OCIE Supv. 10
                     concluded that Westridge was a "high risk" firm. LE, EM
      LE, EM
                        at 3, at Exhibit 34. She described Westridge's arrangement with WG
         Trading, as "one ofthe oddest arrangements" she had ever seen. [d. She referred to its
         use of 20 times leverage, as "nuts." Id. OCIE Supv. 10 also identified several additional
         specific factors that caused her concern, including that Westridge had "access to client
         funds" and "the means to produce false statements or confirmations." [d She also wrote
         about her concern that Westridge had a large value of assets with large account sizes and
         yet had a limited number of employees performing advisory duties. [d.
                                          OCIE Supv. 10                                   LE, EM
                      In her testimony,                   described her findings in her
       LE, EM
                            as follows:

                              .... It's a high-risk firm; and my reasons for that were that
                              there were a lot of affiliations. I'm writing this very
                              colloquially. The registrant has clients invest directly in an
                              affiliated broker-dealer as limited partners which is one of
                              the oddest arrangements I've ever seen. They do this to
                              avoid Reg. T, also very odd. It is unclear whether the
                              affiliated broker dealer is actually using 20-times leverage
                              or just has the ability to do so. I wrote: "Twenty-times
                              leverage sounds nuts." This is the way I talk. Also, one of
                              the owners of registrant and the affiliated broker-dealer,
                              Stephen Walsh, is an owner-manager of another investment
                              advisor located in New York. Based on this little write-up,
                              there were custody concerns. There was a possible hedge
                              fund. The assets were very large. The employees are very
- 1                           small. And I determined that because it had so many risk
                              factors, this is a high-risk firm and the investment strategy
                              didn't make sense. Someone needs to go figure this out.
      OCIE Supv. 10
                           Testimony Tr. at 25-26.
          OCIE Supv. 10
                           also concluded that Westridge's investment strategy "didn't make
       economic sense" and seemed "overly complicated." Id. at 24. She also expressed
       significant concerns about her finding that Westridge "came up with its investment
       strategy," at least in part out of its desire to "avoid the margin requirements of Reg T."
       [d. at 24-25.




                                                                 38
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.
                OCIE Supv. 10
                          explained that her rationale for concluding that Westridge needed to be
         examined further was based on:

                                 the activities of the advisor and their relationship with an
                                 affiliate broker-dealer, the relationship where the advisor·
                                 was engaging a strategy\vhich I didn't understand, where
.   -\                           they would recommend that advisory clients basically
                                 invest in the affiliated broker-dealer which sounds -- the
                                 most bizarre thing I've ever heard.

         Id. at 33.
               OCIE Supv. 10
.i                         confirmed in her testimony that she arrived at all these conclusions and
         findings "upon a review of the Westridge Capital 2005 examination report and a couple
         of days of research." Id. at 26.
                              OCIE Supv. 10
                 After            finished her review of Westridge, she met with the other branch
         chiefs to present her findings and circulated her LE, EM                               to
         the other branch chiefs at the meeting. !d. at 23,27. After the meeting, all of the branch
         chiefs concluded that Westridge had the highest risk of all the investment advisers
         reviewed and deserved to "rise to the first position on the list." Id. at 26-27.
                                                             OCIE
                 OCIE Supv. 10                     OCIE      Supv.
                            noted that both          and
                                                   Supv. 5   were at the meeting to discuss the
                                                             4

         investment advisers, although she did not recall if they commented on Westridge
         specifically. Id. at 30. OCIE Supv. 10 noted that she felt "embarrassed" to be "calling them
         out" during her presentation. Id.
              OCIE Supv. 10
                              conclusion that further examination work was required, after a brief
         and cursory review of Westridge's operations, illustrates the obviousness of the red flags,
         as well as their severity. OCIE Supv. 10 easily concluded, in a couple of days, and using
         information that was available to the 2005 examiners, that Westridge was a hig~-risk
         advisor with a questionable strategy and practices. Her concerns about access to client
         funds and custody issues should have been concerns shared by the 2005 examiners, as
         should have been her concerns about Westridge's confusing investment strategy and the
         large amount of assets managed by very few employees.

               Based upon OCIE   Supv. 10,
                            Witness 1's Atty recommendation, in late January or early February 2009,
         the LAROselected Westridge and WG Trading for a joint examination. OCIE Supv. 10
         Testimony Tr. at 22-23,OCIE
                                  Supv. Testimony Tr. at 43.
                                              4




                                                              39
          This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
          before disclosure to third parties. No redaction has been performed by the Office of Inspector
          General. Recipients of this report should not disseminate or copy it without the Inspector General's
          approval.

                   B. The NFA Forwarded Information About Potential Fraud to the SEC and
                      an Experienced Examination Team Was Assigned to Conduct
                      Simultaneous Examinations of West ridge and WG Trading

                 On February 5,2009, the National Futures Association ("NFA") conducted an
         audit of Vv'alsh and Greenwood, who were commodity pool operators and therefore
         members of the NFA. 2009 Westridge Examination Report at 1. During the audit, the
         NFA found several suspicious documents, including $554 million in promissory notes
         dating back to1996, payable to WGTI from Walsh and Greenwood. Id. The NFA
         contacted Walsh and Greenwood and asked them about the promissory notes and to
         explain whether they had the ability to pay the $554 million back to WGTI. Id. Walsh
         and Greenwood refused to cooperate and on February 12,2009, the NFA suspended
 ii      Walsh and Greenwood from membership and prohibited them from accepting investor
         funds. Id. On February 13,2009; the NFA forwarded this information to the SEC. Id.

                     While the LARO was preparing to examine Westridge and WG Trading based
           upon the recommendation from OCIE Supv. 10 the LARO was informed of the referral from
                                                                                                  OCIE Supv. 4
           the NFA regarding Greenwood and Walsh. OCIE Supv. 10            Testimony Tr. at 22-23;
.I         Testimony Tr. at 48. The LARO then quickly assembled a team of examiners to
           simultaneously examine both Westridge and WG Trading. Id. at 51-52. According to
      OCIE Supv.
      4          unlike in 2005, in 2009, the LARO decided to have the same team from the LARO do
           an examination of both Westridge and WG Trading because, "two separate exam teams
           would be a liability from the standpoint of not being able to understand the full
           operations and interplay between the two entities OCIE Supv. 4 Testimony Tr. at 46. When asked
           why this approach was not used in 2005OCIESupv. 4 said "changes [were] implemented as a result

           of the Office oflnspector General's report, the Madoffexamination." Id. at 47.17 OCIE Supv. 4
           further explained that in 2005 it would have been highly unlikely for examiners from
           another regional office to conduct an examination of a firm in another region; however,
           in 2009, they could "no longer afford to take risks" and "needed to have full control and
           understanding ofthe operations of both firms." Id.
               OCIE Empl. 5                             OCIE Empl. 8                     OCIE Empl. 1
                                                                                    , and
                           were assigned as the examiners on the 2009 joint examinations of Westridge
         and WG Trading. OCIE Empl. 5        had been examining broker-dealers for the SEC for PII years
         and had significant knowledge and experience with hedge funds and commodity pools.
         OCIE Empl. 5
                          Testimony Tr. at 9, 13. OCIE Empl. 8 who had been examining investment advisers
         for the SEC for four years, and OCIE Empl. 1 who had been an investment adviser examiner
         with the SEC since 2004, were assigned as the investment adviser examiners. OCIE Empl. 8
         Testimony Tr. at 7. OCIE Supv. 8                                      and OCIE Supv. 11       were
                      PII                                             OCIE
         assigned                            on the examinations.Supv. 4 Testimony Tr. at 52.
      OCIE Supv. 8
                              an attorney, came to the SEC in 2004, after several years in private


         17 See OIG's Report No. OIG 509, Investigation of Failure of the SEC to Uncover Bernard Madoff's Ponzi
         Scheme, available on our web site at: http://www.sec.gov/news/studies/2009/oig-509.pdf.



                                                           40
     This document is subjeCt to the provisions of the Privacy Act of 1974, and may require redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate or copy it without the Inspector General's
     approval.
                                                                                                                ...1
                                                          OCIE Supv. 8
  practice doing investment management work.                      Testimony Tr. at 7-8.            OCIE Supv.
                                                                                                   11
  who had been with the SEC for ten years, had served as both an investment adviser
  examiner and more recently as a broker-dealer examiner. OCIE
                                                           Supv. 11 Testimony Tr. at 6-8.

  was assigned to supervise the entire examination, having recently been promoted to
 OCIE Supv. 4
                                   Testimony Tr. at 10, 51. Despite being a member of the
                          OCIE
  2005 examination team, Supv. never sought to recuse himself from supervising the 2009
                          4
  examination. 1d. at 52-53. 18                                         .


             On February 17, 2009, the LARD examination staff began on-site work at
     Westridge and at WG Trading. 2009 Westridge Examination Report at 1. According to
     the 2009 IA examination report, the examinations focused on "verification of client
     assets, disclosures made to clients regarding the uS'e of client funds, and the use of
     promissory notes and feeder entities for investment into WG Trading." [d. at 5.

             The 2009 LARD examination team found that Walsh and Greenwood
     misappropriated and misused Westridge's client assets invested in promissory notes
     issued by WGTI. [d. at18. They found that Westridge's clients were told that 100
     percent of the money they invested by purchasing WGTI promissory notes would be
     invested in WG Trading. [d. However, the 2009 LARO examination team found that
     only a small portion of the money invested in WGTI actually went to WG Trading. [d.

             C. Several of the Major Findings in the 2009 Examination Could Have Been
                 Found, or Were Found, in the 2005 Westridge Examination

              As discussed above, the 2005 LARD examination team failed to follow-up on red
                                                       OCIE Empl. 4
     flags they uncovered in their 2005 ·examination.                        confirmed that
     Westridge and WG Trading were both operating in the "exact same fashion" in 2009 as
                         OCIE
     they were in 2005.Supv. 4 Testimony Tr. at 69-70. The record shows that when the 2009
     examination team followed up on the same "red flags" identified in 2005, the fraud was
     easil y discovered.

                     1. Due Diligence and Asset Verification
                                                                    LE

LE



LE
                                                   The examination team further concluded that
LE




                                                                            LE
            The 2009 Westridge examination specifically found that
 LE
                                                         [d. at 27. The examination found

                        OCIE
 18Issues surrounding Supv. 4 management oftne 2009 examinations and his lack ofrecusal are discussed in
 Section V of this repo


                                                     41
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it without the Inspector General's
 approval.

        LE
 that                     received annual audited financial statements for WG Trading, h
LE                                                                                      LE
                                  Id. The 2009 LARO examination team concluded that
LE




         During the 2009 examination, the examination team performed such an analysis
and compared WG Trading's 2007 audited financial statements with Westridge's client
investment records and found a $600 million shortfall. !d. WG Trading's audited
financials reflected net assets of approximately $1.5 billion as of December 31,2007,
while Westridge's records showed client investment in wq Trading to be $2.1 billion.
Id. at 27-28.

        The 2005 LARO examination staff had access to similar records during their
examination. In fact, the 010 investigation found that the 2005 LARO examination
staff's work papers included WG Trading's audited financial statements from 2002 and
2003. The OIG reviewed these financial statements as part of this investigation, and
using documents obtained from the 2005 LARO examination team's work papers, the
OIG conducted a comparison ofWO Trading's 2003 audited financial statements with
Westridge's 2003 Form ADV.19 The OIG found WGTrading's 2003 audited financial
statements showed $1.126 billion in partner contributions, representing the funds that
Westridge's investors had purportedly invested in WG Trading while Westridge's 2003
Form ADV claimed Westridge had $2.9 billion in assets under management. As 80
percent of the $2.9 billion in Westridge's funds were purportedly invested in WG
Trading, or $2.32 billion, the comparison yielded a shortfall of $1.2 billion. 2o
     OCIE Supv. 4
                             admitted that conducting this type of analysis in 2005 could
have found a discrepancy that could have alerted them to the fraud, in the following
exchange:

                    Q:   Well, first, the audited financial statements of WO
                         Trading. Were those at Westridge when you did an
                         exam in 2005? Do you remember seeing those?

                    A:   They were.

                    Q:   Did you look at those?

19 Part 1A Item 5 of the Form ADV includes information on assets under management. See 17 C.F.R.
§275.203-1.
20 We note that the date of WG Trading's 2003 audited fmaneial statements is as of December 31,2003,
while the section of Westridge's 2003 Form ADV thilt identified assets under management is dated May
2003. See Excerpts from Independent Auditors' Report for WG Trading Company LP at 0481-0482 at
Exhibit 35. See also Form ADV for Westridge Capital Management, Inc., at 1355 at Exhibit 36.



                                                  42
                       This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
                       before disclosure to third parties. No redaction has been performed by the Office of Inspector
                       General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
                       approval.



                                             A:   My recollection is that I did.

                                             Q:   Were there also documents that would have shown
                                                  the net amount of assets that Westridge's clients had
                                                  invested?
    r.,-'



                                             A:   We would have had a client list. I believe there's a
                                                  client list that represents 100 percent of the assets, not
                                                  just the 85 percent, or nothing broken out between 85
                                                  and 15, if that makes sense.

                                             Q:   Did you compare those two in 2005?

                                             A:   I do not have a recollection of comparing those two in
                                                  2005.

                                             Q:   Does the statement that we've talked about on page
                                                  27 of the 2009 report indicate that maybe a
                                                  comparison of the two could have determined that
                                                  there was discrepancy?

                                             A:   Correct.

                                             Q:   So, if that had occurred in 2005, the discrepancy
                                                  could have been determined back then?

                                             A:   Potentially.
            OCIE Supv. 4

                           Testimony Tr. at 78-79.
      I
.     )
                             OCIE Supv. 11
                                                       on the 2009 examination, confirmed that the fraud was
                       uncovered with simple methods in 2009, noting, "in retrospect that fraud was not that
                       hard to uncover."OCIE
                                         11
                                             Supv.
                                                   Testimony Tr. at 19. He explained, "we even pointed out in the
                       report all you really had to do was look at the amount of net assets that were on
                       Westridge's books, compare that with the amount of money that WG Trading was
                       representing that they were managing, and those amounts just didn't tie out." [d.
                  LE




                                                                          43
     This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
     before disclosure to third parties. No redaction has been performed by the Office of Inspector
     General. Recipients of this report should not disseminate or copy it without the Inspector General's
     approval.

            As discussed in Section I above, the 2005 LARD e                              also
                                                                OCIE Supv. 5
   aware that LE                                                                        stated that
   they found LE                                                            and concluded that
 LE                                 OCIE
                                    Supv. 5 Testimony Tr. at 28. They also were aware of and
   in fact, concluded that Westridge had an ineffective compliance program. 2005
LE

LE
                                Yet, in 2005, the examination teams failed to attach any
     significance to this evidence and did not follow-up adequately.

                     2. Marketing Omissions and Misrepresentations

            The 2009 LARD examination team found that Westridge provided inaccurate and
     misleading marketing materials to its clients. 2009 Westridge Examination Report at 3.
     The 2009 team specifically referenced the omissions in Westridge's Form ADV about the
     existence and purpose of promissory notes. Id. at 29. The 2009 examination team found
     these omissions to be material, stating: "The lack of disclosure about the existence,
     purpose, and nature of feeder entities and promissory notes, particularly in key disclosure
     documents such as Registrant's Form ADV and WG Trading's limited partnership
     agreements and subscription agreements amount to a material omission." Id.

             Yet, as discussed in Section I above, the 2005 LARO examination team was
     aware of these same concerns, noting specifically in the 2005 examination report, that,
     there were "a myriad of inaccuracies" in Westridge's form ADV. 2005 Westridge
     Examination Report at 9. The 2005 report also stated that Westridge, "routinely failed to
     incorporate the requisite disclosures when presenting materials to prospective and/or
     existing clients." Id. at 10.

     However, instead of viewing these misstatements and omissions as material, the 2005
 examination team concluded that they were examples of "carelessness rather than serious
 recidivism." Id. at 7.

                     3. Custody Issues

         Rule 206(4)-2 of the Investment Advisers Act of 1940 defines "custody" as
 "holding, directly or indirectly, client funds or securities, or having any authority to
 obtain possession of them." 2009Westridge Examination Report at 41; see also, 15
 U.S.c. § 80b-6 rule 206(4)-2 [17 CFR 275.206(4)-2] under the Investment Advisers Act
 of 1940. The rule further defines custody as any capacity, such as general partner of a
 limited partnership, that gives the investment adviser or a supervised person legal
 ownership of or access to client funds or securities. Id. at 40.

          The 2009 LARO examination team determined that because Walsh and
 Greenwood were "owners, and thus supervised persons of [Westridge], and had access to
 all client funds that were invested in or passed through WG Trading and WGTI,


                                                     44
      This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report.should not disseminate or copy it without the Inspector General's
      approval.

      [Westridge] had custody of the applicable client's assets." 2009 Westridge Examination
      Report at 40. The 2009 examination staff further concluded that Westridge's supervised
      persons, Walsh and Greenwood, were general partners of WGTI and as such had access
      to client assets invested in WGTI giving Westridge custody of those assets. Id. at 41.

               Rule 206(4)-2 imposes certain requirements on investment advisers that have
      custody of client securities or funds. Id. The 2009 LARO examination team determined
      that Westridge was not in compliance with the custody rule with respect to the assets
      invested in WGTI because Westridge's clients did not receive statements from WGTI's
      custodian or from Westridge reflecting WGTI's holdings and transactions as required by
      the rule. Id. at 41-42. The 2009 examination team also concluded that WGTI was not
      audited and consequently audited financial statements were not distributed to Westridge's
      clients that invested in WGTI, as was required by the rule. Id. at 42.

                The 2009 LARD examination team made this custody determination based on the
      same facts that existed in 2005. The 2005 LARO examination team was aware that
      Walsh and Greenwood were the general partners ofWG Trading and WGTI and, thus,
      had access to Westridge's client assets that were invested in and through those entities.
      2005 Westridge Examination Report at 2, 5. The 2005 examination team also knew
      Walsh and Greenwood were the majority owners of Westridge. Id. at 2. As described in
      greater detail in Section I above, even though planning documents for the 2005 Westridge
      examination clearly indicated an intention to focus on custody issues, the 2005
      examination report did not contain a custody analysis of the assets invested in WG
      Trading and WGTI. 21 Had the LARO examination team done so, they should have come
      to the same conclusion as the 2009 examination team did, which was that Westridge did
      have custody of those client assets. Such a determination would have triggered a
      requirement that WGTI distribute independently audited financial statements each year to
      all its limited partners. 2009 Westridge Examination Report at 41 (See also Rule 206(4)-
      2(b) (4)). Given all the fraud evidence the 2009 team found in WGTI's records (as
      discussed in the following section), an independent audit·of WGTI in 2005 likely would
      have detected the fraud.

. i                    4. Review of Records from WGTI

              .The 2009 LARO
                        .     examination team uncovered. evidence of fraud in the records of
      WGTI, the unregistered investment vehicle that was being used as a "pass-through"
      between Westridge and WG Trading. For example, WGTI's balance sheet showed $667
      million in promissory notes were issued to WGTI Investors with only $94 million
      actually going to WG Trading. 2009 Westridge Examination Report at 18. In addition,
      WGTI's records included evidence of payments from WGTI to entities affiliated with



      21 As also discussed in Section I, although the 2000 examination team conducted a custody analysis, they
      concluded West ridge did not have custody of client assets invested in WG Trading.         .



                                                         45
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients of this report should not disseminate or copy it without the Inspector General's
   approval.

   Walsh and Greenwood, including a $19 million payment to Walsh's ex-wife and an $18.6
   million payment to the horse farm operated by Greenwood's wife. [d. at 19.

             The 2009 LARO examination team easily obtained access to WGTI's records
                                OCIE
     once on site at WG Trading Supv. 4 Testimony Tr. at 65-66. The 2005 LARO examination
     team did not even request WGTI's records during their examination. [d. at 70. In fact,
OCIE Supv. 5
                        seemed confused about whether the SEC had any authority to obtain
     documents from unregistered entities even where they suspected fraud, as evidenced by
     the following exchange:

                   Q:     So you're saying it's not possible for the SEC to get
                          documents from an unregistered entity?

                   A:     I'm not saying it is not possible. I was saying, if we
                          were not able to obtain records -- often when we do
                          an investment or other investigations, we often
                          encounter unregistered entity -- affiliated entities of
                          the adviser or investment company.

                   Q:     So if a company wants to conduct fraud and they do it
                          through an unregistered entity --

                   A:     Can I finish my --

                   Q:    Well, I have a question. If a company wants to
                         conduct fraud --

                   A:    Uh-huh.

                   Q:    -- and they do it through an unregistered entity --

                   A:    Uh-huh.

                   Q:    -- you can't uncover it. The SEC just can't uncover it
                         cause it's unregistered. Is that --

                   A:    I'm not going to answer that hypothetical cause I
                         don't know. I mean, I don't know whether that's --
                         you know, can 0r cannot.

                   Q:    So you don't know if the SEC is able to uncover fraud
                         where there's an unregistered entity involved?




                                                   46
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaCtion has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                A:     I'm not saying that. I'm just saying that it is -- when
                       it's an unregistered entity, we don't have a right to
                       obtain documents from that -- about that entity --

                Q:     Does the enforcement division have the right to
                       obtain documents --

                A:     I don't know what they have or they don't have cause
                       I never worked for the enforcement division.

                Q:     But you can -- has -- has the investment adviser staff
                       ever made a referral to enforcement?

                A:     I don't know whether, you know -- I don't - I don't
                       recall. I mean, I don't know whether-

                Q:    You've never--

                A:    -- it's possible--

                Q:    -- you've never heard of a case where an investment
                      adviser exam made a referral to the enforcement
                      division?

                A:    ML Kotz, I was told never say "never," and I would
                      not --

                Q:    So in your experience, you've - you've - you haven't
                      had a situation where you're even aware of the
                      investment adviser group making a referral to
                      enforcement?

                A:    I don't know. Maybe. I'm just - can't recall any
                      specific instance; and, therefore, I do not want to
                      answer that question.

                Q:    Okay.

                A:    But many times in an examination, we encounter
                      unregistered affiliates, and we often request
                      documents voluntarily. Many times we -- sometimes
                      we get records. They get corporations. Other times
                      we don't. And there -- I personally have some
                      experience that, when we push for the record and they
                      registrant refuse to provide the record, stating that we


                                                47
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.

                                         don't have jurisdiction, and we brought that up to the
                                         office, and at the end, we never receive the record.
      OCIE Supv. 5
                     Testimony Tr. at 59-61
                     OCIE Empl. 8
                       an examiner assigned to the 2009 examinations discussed the failure of the
         2005 LARO examination team to seek and review documents from WGTI in the
         following exchange:

                                    Q:   Okay. So in your examination on-site at Westridge
                                         Capital, you were able to view documents that related
                                         to WGTI?

                                    A:   Correct.

                                    Q:   Even though WGTI was unregistered?

                                    A:   Correct.
_ 1
                                    Q:   Okay. Now, were you aware of whether in 2005 the
                                         IA examiners had knowledge of WGTI or that there
                                         was some pass-through vehicle?

                                    A:   My understanding is they had knowledge of WGTI.

                                    Q:   Do you know if they reviewed any WGTI documents
                                         in 2005?

                                    A:   My understanding is they did not review any
                                         documents of WGTI.

                                    Q:   Do you know why not?

                                    A:   My understanding of why they did not is because
                                         WGTI was unregistered, and there was either some -
                                         a difficulty in obtaining the document or decision not
                                         to request any documents pertaining toWGTI. I
                                         don't know which of the case is true.

                                    Q:   Okay. Now, as a general matter, if the SEC is doing
                                         an examination and it suspects fraud or potential
                                         fraud, if you have an entity like WGTI that is
                                         unregistered, would that preclude the SEC from
                                         reviewing those documents, whether through the
                                         context of the exaniination or if they wanted to get


                                                                48
                This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
                before disclosure to third parties. No redaction has been performed by the Office of Inspector
                General. Recipients of this report should not disseminate or copy it without the Inspector General's
                approval.

                                              enforcement involved? I mean, is the fact that some
                                              entity's unregistered, does that mean the SEC can
                                              never look at those documents if they're suspecting
                                              fraud?

                                        A:    I'm not sure what our abilities are to obtain
. '"j                                         documents of unregistered entities. I know that pre-
                                              Madoff there were plenty of instances where people
                                              felt shy about requesting documents from a firm that's
                                              unregistered. I know that post-Madoff, people feel
                                              much more capable and not shy about requesting
                                              those documents from unregistered firms.
        OCIE Empl. 8
                          Testimony Tr. at 24-25.

                      The.OIG investigation found a major difference between the manner in which the
               two examinations were conducted related to the fact that the 2009 examinations were
               conducted after the "Madoff' scandal. 22
                         OCIE Supv. 8
                                                               said that custody of assets was a focus of the 2009
               examination because of Madoff:

                                        This was right after the Madoff -- problems that arose after
                                        Madoff. And so it was a focus on, you know, looking at
                                        custody arrangements, in particular, custody arrangements
                                        where the broker-dealer or affiliated broker-dealer may
                                        have custody of advisers, clients' assets.
          OCIE Supv. 8

                                        Testimony Tr. at 40.
                       OCIE Supv. 4
                                              also said that after Madoff, and specifically after the OIG's
               Madoff report, protocol changed allowing for joint investment adviser and broker-dealer
               examinations, which OCIE
                                   Supv. said was critical to understanding risk:
                                              4


                                        A:    We -- in my -- the Madofffilings from the Office of
                                              Inspector General. We made a determination in our
                                              office that having two separate offices and two
                                              separate exam teams would be a liability from the
                                              standpoint of not being able to understand the full

               22 The OIG fou~d that the SEC received numerous complaints that Bernard Madoff was potentially·
               operating a Ponzi scheme, but failed to conduct competent examinations and investigations of Madoff and
               his firms. Specifically, the OIG found that two broker-dealer examinations conducted of Madoff's firms
               failed to fOllow-up on custody-related issues that would have uncovered the fraud. See Report No. OIG
               509, Investigation of Failure of the SEC to Uncover Bernard MadofJ's Ponzi Scheme, issued August 31,
               2009 available at http://www.sec.gov/news/studies/2009/oig-509.pdf.


                                                                      49
               This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
               before disclosure to third parties. No redaction has been performed by the Office of Inspector
               General. Recipients of this report should not disseminate or copy it without the Inspector General's
               approval.

                                      operations and interplay between the two entities, the
                                      movement of money and how the two firms worked
                                      together; and the determination was made that we
                                      would need the joint exam team -- the same
                                      examiners was the original intention who would go to
                                      \Vestridge first to conduct their exam from the idea
                                      th~t the money was coming into Westridge, and then
                                      ultimately hitting WG, and that same exam team
                                      would then go to WG Trading Company to conduct
                                      the broker-dealer exam ....

                               Q:     So, whatwas the difference between the protocol in
                                      2005 and the protocol in 2009?

                               A:     Changes implemented as a result of the Office of
                                     Inspector General's report, the Madoff examination.
                                     We determined that that particular protocol was
                                     something we could no longer afford to take risks
                                     with, that we needed to have full control and
                                     understanding of the operations of both firms to really
                                     understand the risks of what was going on. So, that
                                     was why that particular decision was made.
OCIE Supv. 4
                  Testimony Tr. at 46-47.
        OCIE Supv. 4

                           also hypothesized about the failures in the 2005 examination and testified that
               if they had conducted third-party asset verifications in 2005, as they do now after Madoff,
               they would have found the fraud:

                               Q:    Looking back now, do you think that more should or
                                     could have been done in 2005 with respect to the
                                     investment adviser exam of WestridgeCapital?

                               A:    Hindsight is 20/20. If we conducted third-party asset
                                     verifications pursuant to recommendations and the
                                     Office of Inspector General's Madoff report in 2005,
                                     at that time in 2005, it would have required us to get
                                     third-party confirmation of the assets with a
                                     custodian, most likely J.P. Morgan or Merrill Lynch, I
                                     believe, or with the current custodians for WG
                                     Trading and confirmation with the individual
                                     investors as to amount invested. That was one of the
                                     particular items ....




                                                               50
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
    before disclosure to third parties. No redaction has been performed by the Office of Inspector
    General. Recipients of this report should not disseminate or copy it without the Inspector General's
    approval.

                           --if we'd conducted what we do now in terms of our
                           2009 asset verification procedures, it would clearly
                           require confirmation with the individual investors, as
                           well, which would have allowed us to necessarily see
                           a discrepancy between what was being represented to
                           the investors and what was actually available in
                           liquidating equity.

                     Q:    And that's an area you believe that fraud would have
                           been uncovered?

                     A:    I do.

    Id. at 71-72..
      OCIE Empl. 8
                     also explained that after Madoff there was a "renewed focus on ensuring
                                                                  OCIE Empl.
      that we review the existence of client assets at all firms."8          Testimony Tr. at 26.
OCIE Empl. 8
             further explained that the 2009 Westridge and WG Trading examinations were
      different because after the Madoff case, verification of assets became a key concern:

                     Q:    You stated several times about differences in how
                           things were done pre- and post-Madoff.

                     A:    Yes.

                     Q:   So do you think that part of the reason why the exams
                          were conducted differently in 2005 and 2009 -- or just
                          generally how the exam was conducted in 2005 -- has
                          to do with that pre- and post-Madoff? In other words,
                          if this Westridge Capital IA exam had been conducted
                          post-Madoff, it might have been done very differently
                          than it was done 2005?

                     A:   I believe so.

                     Q:   Why do you think that?

                     A:   Because one of the key concerns post is the
                          verification of assets, and I believe the exam team in
                          2005 identified that there was this other fund,
                          unregistered fund, WGTI; and post-Madoff, we
                          would not conclude the examination without making
                          every reasonable attempt to get a hold of the
                          information about the financials of WGTI.



                                                    51
             This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
             before disclosure to third parties. No redaction has been performed by the Office of Inspector
             General. Recipients of this report should not disseminate or copy it without the Inspector General's
             approval.

             Id. at 38-39.

                     However, the OIG investigation found that the 2005 Westridge examination was
             conducted under "pre-Madoff' procedures by examiners who were not focused
             sufficiently on verifying client assets and at least one of whom was confused about
             whether the SEC could obtain documents from unregistered entities even if fraud was
             suspected. Thus, although the 2005 examination team was aware of and had in its hands
             evidence of potential fraud, they did not take the basic steps necessary to investigate the
             matter further and, as in Madoff, a significant fraud was not uncovered at that time.


                 IV. If the LARO had Referred their Findings in the Westridge IA Examination
                     and a Broker-Dealer Examination of WG Trading had been Conducted,
                     the Fraud Would Also Likely Have Been Discovered

                         The GIG investigation found that prior to the 2009 cause examination of WG
             Trading, WG Trading had not been examined by the broker-dealer examiners at the SEC
             since 1995. 2005 Westridge Examination report at 3. According to BRG Associate
      I
      J
              Regional Director Corkery, it was not unusual to go to go 15-20 years between broker-
             dealer examinations due to resource limitations. Corkery Testimony Tr. at 11. BRG
            OCIE Supv. 2
                                                     testified that there are 450 registered broker-dealers
             in the BRO's territory and he said there was no particularly prescribed time period
             between broker-dealer examinations, as they were simply based on a risk analysis.
           OCIE Supv. 2
                          Testimony Tr. at 10, 12.
                 OCIE Supv. 2
                            stated that WG Trading did come up as a potential candidate for an
            oversight examination in 2006. Id. at 16. However, another broker-dealer was deemed a
            better choice because that firm had been examined by both the National Association of
            Securities Dealers (NASD) and the New York Stock Exchange (NYSE) within the year
            and there was an Enforcement link to one of the firm's principals. Id. at 14-16.
      I-
      )


                    Moreover, the OIG investigation found evidence that had the LARG actually
            referred the Westridge examination findings, the BRG would have conducted a broker-
            dealer examination of WG Trading in 2005. BRO Regional Director Bergers said, "The
            sense that I got from the staff here is that if they had read the report that they would have-
            gone out on site." Bergers Testimony Tr. at 25. OCIE Supv. 2 thought it "would be pretty
            automatic" for the BRO to do an examination if they had gotten a referral from the
            LARO. OCIE Supv. 2 Testimony Tr. at 17.

                  Corkery testified that given the numerous red flags in the 2005 Westridge
            examination report, the BRG would have been concerned and looked for fraud in an
            examination of WG Trading in the following exchange:

                                Q:   Do you think if you had these kinds of red flags
                                     where you had these consistent returns, lack of
. i
  i


                                                             52
      This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction
      before disclosure to third parties. No redaction has been performed by the Office of Inspector
      General. Recipients of this report should not disseminate or copy it without the Inspector General's
      approval.

                                disclosure, inaccuracies in the ADV, compliance
                                program that didn't seem to be a priority, given that
                                the compliance person had little experience and
                                wasn't being trained, documentation that you weren't
                                getting, e-mails that were deleted, would those be at
                                least potential concerns that there might be some kind
                                of fraud?

                           A:   Certainly it would be a concern. Potential fraud, the
                                lack of disclosures would concern me greatly, and as
                                to why there was a lack of disclosure and the
                                affiliations.

                           Q:   So if the broker-dealer unit got such a referral, would
                                one of the things they'd be looking for is at least a
                                potential of fraud?

                           A:   Yes. And just acts of conflict of interest that are
                                inherent in these relationships.

      Corkery Testimony Tr. at 18-19.
            OCIE Supv. 2
                    stated he believed that the BRO would have uncovered the fraud if they
      had done the WG Trading examination in 2005, as evidenced in the following exchange:

                           Q:   Do you think it's possible or even likely that had the
                                Boston office conducted a broker-dealer examination .
                                of WG Trading in 2005, given what the development
                                advisors found in their Westridge IA report in 2005
                                and given what we now know the Los Angeles folks
                                both on the IA and BD side found in 2009, that they
                                would have uncovered that there was at least a
. :                             potential fraud here?

                           A:   That certainly is possible, and I would hope it would
                                be likely.

                           Q:   Because the SEC broker-dealer unit's job is - is able
                                to uncover these type of frauds by doing
                                examinations, right?

                           A:   Yes.

                           Q:   And so where you have situations like in this case
                                there are red flags, there are concerns, there are


                                                       53
 This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction
 before disclosure to third parties. No redaction has been performed by the Office of Inspector
 General. Recipients of this report should not disseminate or copy it without the Inspector General's
 approval.

                              documents that can be reviewed, the broker-dealer
                              folks are able to either uncover the fraud themselves
                              or raise enough issues that they bring enforcement in
                              to help uncover the fraud?

                         A:   Yes.

                         Q:   So it may very well be that if the referral had actually
                              happened in 2005, this fraud would have been
                              uncovered many years before it finally was in 2009?

                         A:   That is possible, yes.

                         Q:   And do you think it's likely?

                         A:   Likely, as I said, I hope it would be likely, but I think
                              there is a reasonable possibility or a good possibility,
                              you know.
OCIE Supv. 2
               Testimony Tr. at 35-36.
          OCIE Supv. 2
                also stated that based upon the red flags in the 2005 Westridge
examination report, the broker-dealer examination of WG Trading would have focused
on "Ponzi scheme type payments" and would have made efforts to "figure out where the
money is and how much is there," determining ifthere was actual trading if they're
claiming to be doing trading" and "looking to try to see if any money was going out in an
appropriate fashion." Id. at 33.

        Members of the 2009 LARO examination team also concurred that a 2005
                                                               OCIE Supv. 11
examination of WG Trading could have uncovered the fraud.                            testified
directly that if a broker-dealer examination was conducted in 2005 in a manner similar to
the examination in 2009, the fraud would have been detected. OCIE
                                                                Supv. 11 Testimony Tr. at 18.
           OCIE Empl. 5
Examiner                also concurred, identifying numerous red flags and discrepancies
that could have been detected had an examination been conducted of WG Trading in
2005. OCIE Empl. 5 Testimony Tr. at 22-23.

        Thus, had either the 2005 LARO Westridge examination team conducted a
competent and through examination of Westridge in 2005, or actually referred their
findings about WG Trading to the BRO, the fraud would likely have been discovered
several years earlier.




                                                       54
                This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
                before disclosure to third parties. No redaction has been performed by the Office of Inspector
                General. Recipients of this report should not disseminate or copy it without the Inspector General's
                approval.
                                      OCIE Supv. 4
                      v.    Allegation       Attempted to Cover up Mistakes he Made in the 2005
                            Examination During his Supervision of the 2009 Examinations

                        The DIG also investigated the allegation in the anonymous complaint that
             OCIE Supv. 4
                                                 "instructed (and even bullied) examiners to not pursue
                certain red flags in an examination where the LARO exam staff uncovered a massive
                fraud. OCIE Supv. 4    motive for doing this seemed to be that he either performed, or was
                materially involved in directing, the most recent prior exam at the firm."
                                                                                    OCIE
                       The DIG investigation found that notwithstanding Supv. 4 involvement with the
               2005 Westridge examination and notwithstanding significant questions about how the
               2005 LARD examination team, which included OCIE  Supv. 4 failed to uncover an ongoing fraud at
                         OCIE
    ·.1  i
               Westridge Supv. 4 never considered recusing himself from the 2009 LARO examinations of
         J

               Westridge and WG Trading and his superiors did not recommend that he be recused
               either.
                                      OCIE
                     In testimony Supv.
                                   4
                                        stated he did not have any concerns about supervising the 2009
               examination in the following exchange;
'. I
   I
    ·1
                                Q;    And so, did you consider in your mind whether it was
                                      a good idea to be so heavily involved in this 2009
                                      exam given that you were involved in the 2005 exam?

                                A:    No, I did not. It was not -- it is not atypical for
                                      examiners to examine the same firm twice; not
                                      atypical for supervisors to supervise an examination,
                                      another examination of the same registrant twice.
                                      And then oftentimes, it is sometimes considered
                                      helpful to have one or more of the prior exam team on
     )                                that exam because they have a better basis for
, I
     i                                understanding the firm.

.
    "
     I                          Q:    What about a case like this where you had been
                                      involved in an exam of that entity and then later on
                                      there was credible evidence of a fraud and there might
                                      be concern that you potentially might have missed the
                                      fraud in connection with your 2005 exam?
                                                     OCIE Supv. 4
                                COUNSEL FOR                              concern?

                                BY MR. KOTZ:

                                Q:    Wouldn't that be your concern that here you are now
                                      working on a 2009 exam of a matter where you
                                      potentially could have missed the same thing in 2005?


                                                                    55
            This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
            before disclosure to third parties. No redaction has been performed by the Office of Inspector
            General. Recipients of this report should not disseminate or copy it without the Inspector General's
            approval.



                                 A:   I had absolutely no concerns. It never even hit my
                                      mind. To be honest with you, I had the exact opposite
                                      feeling, that if there was something that was missed in
                                      the previous exam, I wanted to make absolutely sure
                                      that this exam was run exactly by the book and
  ,(
                                      everything that we needed to find out we found out
   1
                                      and we brought to light.
       OCIE
       Supv. 4   Testimony Tr. at 53-54.
                  OCIE Supv. 4

                                supervisor, Martin Murphy, similarly testified that the staffing of the
            2009 LARO Westridge and WG Trading examinations was based on availability and
                                                                      OCIE Supv. 4
            competency and no consideration was given to the fact                  had been involved with
            the 2005 Westridge examination. Murphy Testimony Tr. at 19. Likewise, LARO
            Regional Director Rosalind Tyson testified that there was no policy for recusing staffers
            where someone had done an earlier examination that did not detect an ongoing fraud, and
            she did not see that there was a problem in OCIE Supv. 4 supervise the examinations. Tyson
. ii        Testimony Tr. at 11-12. She also said she was not aware that any staffers felt OCIE Supv. 4
  J
            supervision of the 2009 examination was inappropriate. [d. at 14.

                  However, the OIG found that the examiners who worked on the 2009 LARO
                                                                                                            OCIE Supv. 4
           examinations of Westridge and WG Trading did have significant concerns about
           involvement. ExaminerOCIE Empl. 5          testified he believed OCIE
                                                                            S     should have been recused
                                                                            upv.
           from the 2009 examinations so "that the examiners on the         4 team [would] feel that it is an

           open exam, just less stressful than having someone who possibly could be subconsciously
           defensive." OCIE Empl. 5    Testimony Tr. at 35-36. Examiner OCIE     Empl. 8 also testified that he
                                    OCIE Supv.                                                         OCIE
           "had concerns about 4               involvement with the 2009 examination" because Supv. had
                                                                                                       4
           been involved with the 2005 examination in which the "substantial fraud" had not been
           uncovered. OCIE
                      8
                           Empl.
                                 Testimony Tr. at 14-15.
                                                          OCIE Empl. 5
                   In addition to general concerns,                       testified that he had several significant
           disagreements with OCIE
                                 Supv. during   the   2009    Westridge    and WG Trading examinations
                                 4
           regarding the scope of the examinations, and that he was concerned that there were
           "particular areas" ofthe examinations OCIE Supv. 4 felt shouldn't be looked at." OCIE Empl. 5
           Testimony Tr.. at 25. OCIE Empl. 5     stated OCIE
                                                            4
                                                                Supv.
                                                                      questioned the necessity of determining
                                           OCIE Empl. 5
           the capital balances, which                     felt was "part of the story of the fraud" and
           eventually was allowed to perform. [d. at 26-27. OCIE Empl. 5              testified that it crossed his
           mind that the disagreement OCIE Supv. 4 was related to the 2005 examination and that it added
           to the "stress level" of the examination. [d. at 36-37. He also noted that he did not recall
           ever having another examination in his time at the SEC where there were so many
                                                        OCIE Empl. 5
           disagreements. [d. at 31. However,                          said that at the end of the examinations,
           he "was fairly satisfied with the write-up on the capital balances" and OCIE         Supv. 4"did not

           substantially alter[] anything [in the examinations reports] that [he] would have taken
           exception to." !d. at 38-39.


                                                                 56
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
   before disclosure to third parties. No redaction has been performed by the Office of Inspector
   General. Recipients of this report should not disseminate or copy it without the Inspector General's
   approval.

                In addition, the examiners assigned to the 2009 examinations of Westridge and
    WG Trading reported that the level OCIE Supv. 4 involvement in the 2009 examinations was
    "unusual" for such a senior official.OCIE Empl. 5                 testifiedOCIE Supv. 4 "reviewed and edited"
    the 2009 report and had "regular telephone calls" with the staff during field work.
OCIE Empl. 5                                                                        OCIE
                    Testimony Tr. at 14-15.· He stated that he and Empl. 8 had lengthy telephone
    conversations OCIE Supv. 4 sometimes lasting two hours, on 11 of the 15 days of field work.
    [d. at 15. OCIE Empl. 5      considered the level of involvement "unusual" and noted, "I don't
    believe I have had PII                                             be that involved" in an examination
                                                OCIE Empl.           OCIE Supv. 4
    before. [d. at 49,51. Similarly, 8                     testified              had daily, long telephone
    conversations with the staff during the field work and had weekly meetings with them
                   OCIE Empl.                           OCIE Empl.
    thereafter. 8             Testimony Tr. at 18.8                also thought that it was unusual to have so
    many long telephone conversations with PII                                                    while in the field.
                                OCIE Empl.
    [d. at 19. However,8                   did not indicate that he had any "substantive disagreements"
   OCIE Empl. 8
                 with respect to the 2009 examinations. [d. at 17.
  OCIE Supv. 4
               denied any impropriety in connection with his work on the 2009 examinations
   of Westridge and WG Trading OCIE
                                  Supv. 4 Testimony Tr. at 56. He stated, "That isnot true"
  when confronted with the allegation that he instructed examiners not to look into certain
   areas so it would not appear he missed them in 2005.OCIE Supv. 4 also had a very different
  account of the disagreements with OCIE Empl. 5   He testified the disagreements he had with
 OCIE Empl. 5                                                               OCIE Empl. 5
               had more to do with time constraints than the substance of                work,
   explaining as follows:

                      ... Capital balances, as I said, was always one of the priority
                      items. I believe approximately -- well, somewhere several
                    . months down the line, there were issues with OCIEEmpl. 5 because

                      his capital balances analysis had not been completed yet;
                      and considering the fact that we were working in
                      conjunction with Enforcement which had already issued,
                      filed their claim in federal court, there were -- time was of
                      the essence to provide a completion to our exams as quick
                      as possible with.as much relevant information as possible
                      so that Enforcement would have that information available
                      to them when they were taking proffers from different
                      individuals and also in deciding who to charge because
                      they had only charged Walsh and Greenwood in the
                      beginning. So, I know there was discussion about whether
                      or not other examiners on the team -- whether it was
                    OCIE Empl. 1
                                 or OCIE Empl. 8 -- could assist or take over portions
                      of that capital balance analysis in order to speed up the
                      process because they already had completed their tasks ....

   !d. at 58.




                                                           57
       This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
       before disclosure to third parties. No redaction has been performed by the Office of Inspector
       General. Recipients of this report should not disseminate or copy it without the Inspector General's
       approval.
                                                                                                       OCIE Supv.
                                                                                                       4
                 Thus, while the OIG investigation did not find specific evidence that
       instructed or bullied examiners to ignore "red flags" in the 2009 examinations of
       Westridge and WG Trading that would have identified issues or areas that he himself
                                                                  OCIE Supv. 4
       failed to uncover in the 2005 Westridge examination or                  directed substantive
       changes to the report's findings, the OIG did find that examiners were uncomfortable
       with OCIE
            Supv. 4 involvement in the 2009 examina       s and that this created an appearance of
                                                     OCIE
       impropriety that could have been avoided ifSupv.
                                                     4
                                                          had been initially recused from the 2009
       examinations.


                                                                OCIE
               VI. Numerous Complaints About Supv. 4 Management Style Were Not Addressed
                   by His Superiors

                In the course of its investigation, the DIG found evidence that many LARO
       employees had significant concernsOCIE Supv. 4     management style in general. Yet, the
       OIG also found that there was little, if any, evidence that any action was taken by
       management to resolve or even address these concerns and that employees feared
       retaliation if they complained to LARO management.
                                     OCIE Empl. 5
                   Examiner              described how uncomfortable he felt OCIE Supv. 4       and testified
      that on one occasion, OCIE
                               Supv. 4"aggressively passed me in the hallway and I had to mo                 f
      his way." OCIE Empl. 5   Testimony Tr. at 48.OCIE Empl. 5      said he told his supervisor,
     OCIE Supv. 11
                      about his problems OCIE Supv. 4    at 49. OCIE Empl. 5  testified that OCIE
                                                                                             11
                                                                                                  Supv.


      responded to him, "Don't worry about it," or "Keep working." Id.
                 OCIE Empl. 5
                              also testified that many other examiners had difficulties working with
OCIE Supv. 4
               in the following exchange:

                                A:       Since I've worked on the assignment - these
                                         assignments that we've been speaking about in 2009 -
                                         - I have heard of quite a few examiners that have had
                                                                      OCIE Supv. 4
                                         difficulties in working with

                                Q:       Okay. Which examiners?

                                A:       Well, two of them are no longer here. They are
                                         females that I think technically they may have been
                                         permitted to resign, but one of them was a
                                     Former OCIE Empl. 6
                                                                 and another was Former OCIE Empl. 7
                                         and they had a difficulttime working with him.

      Id. at 53-54.




                                                                   58
                 This document is suhject to the provisions of the Privacy Act of 1974, and may require redaction
                 before disclosure to third parties. No redaction has been performed by the Office ofInspector
                 General. Recipients of this report should not disseminate or copy it without the Inspector General's
                 approval.

                        Examiner OCIE
                                 Empl. 8 also stated he "heard from many examiners [that] they don't
                                   OCIE Supv. 4
                 enjoy working with              because OCIE Supv. 4 management style and how he talks to or
                 communicates with people." OCIEEmpl. 8 Testimony Tr. at 34-35.
                             OCIE Supv. 10

                                                     also testified that she knew of employees who had issues
              OCIE Supv. 4
                            management and commu..'1icationstyle. OCIE Supv. 10        Testimony Tr. at 9-10.
              OCIE Supv. 10
                            testified that she was actually asked to mentor OCIE Supv. 4 he was first promoted
                to branch chief. [d. at 10. OCIE Supv. 10 said OCIE Supv. 4 subordinates let her know that they
                                                                                                               OCIE Supv. 4
                had problems with OCIE4
                                          Supv.
                                                In fact, OCIE Supv. 10 decided she no longer wanted to mentor
                because she felt he was "too reactive" and that she was doing too much "damage control"
               for him. !d. at 12-13.
                        OCIE Supv. 8                                              OCIE Supv. 4
                                                              who reported directly                   expressed concerns
             with his managerial approach. OCIE Supv. 8                 testified that in OCIE Supv. 4 unexpectedly
             called her on her vacation to tell her he was firing examiner Former OCIE Empl. 6
           OCIE Supv. 8
                                    Testimony Tr. at 25.OCIE Supv. 8          said she "personally did not agree"
             with the decision and had "no warning" it was coming. [d. at 26, 29. She said it was
             "alarming" to her and she expressed her concerns to OCIE Supv. 10
I
:J
          OCIE Supv. 9 and OCIE Supv. 1
                                                                     Id. at 29-30. OCIE Supv. 8
                                                                               OCIE Supv. 4
                                                                                                       also testified she
             felt she was treated unfairly in her mid-year review                               at 34. OCIE Supv. 8
             further testified that Examiner          OCIE Empl. 9
                                                                           who previously worked OCIE Supv. 4
                                         OCIE Supv. 4
             expressed concerns                       [d. at 36-37.

                          The OIG investigation also found that some employees who had concerns about
       OCIE Supv.
       4            were afraid of retaliation if they raised them too aggressively with management.
                                                                OCIE
              Examiner OCIE  Empl. 8  also said he heard about Supv.
                                                                4
                                                                      from Examiner Former OCIE Empl. 7
            OCIE Supv. 8
                                     and Examiner OCIE Empl. 5  and that all three "expressed concerns over
              retaliation if they were to go up the chain of command and express their concerns about
       OCIE Supv. 4           OCIE Empl.                       OCIE Supv. 8
                              8          Testimony Tr. at 35.                   admitted that she had concerns
              about "a negative impact" and not being "looked at like as a team player" if she were to
              complain up the supervisory chain about OCIE Supv. 4. OCIE Supv. 8 Testimony Tr. at 31. She    OCIE Supv. 4
                        aid she had the impression that Associate Regional Director of Regul&tion and
        PII
                         supervisor, Martin Murphy, would not have been receptive to her concerns about
     OCIE Supv. 4
                     Id.
        PII




              PII




                                                                 59
               This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
               before disclosure to third parties. No redaction has been performed by the Office of Inspector
               General. Recipients ofthis report should not disseminate or copy it without the Inspector General's
               approval.
       PII




 'i




  "


.I
                     OCIE Supv. 8
                                                             said the decision to take OCIE Supv. 4 supervisory duties
                                                OCIE Supv. 8
               was welcomed by the staff.                           Te'stimony Tr. at 36. She said, "people would
               come in and were happy ... " to learn he was no longer a supervisor. /d. However, this
             . was PII                                                    taken as a result of the strong reaction
               fromOCIE
                    Supv. 4 staff relating to the distribution of information concerning his PII
               use. The OIG found no evidence that, notwithstanding the concerns exp
                                               OCIE Supv. 4
               numerous employees about                                 style, any action was taken by LARO
               management to address these larger issues.
                                     OCIE Supv. 4                        PII
                   VII. Allegation                  Made Misstatements

                      The OIG also investigated the allegation in the anonymous complaint that OCIE Supv. 4
               "appears to have made possible misstatements, omissions or lacked candor" in his
               testimony before the OIG in connection with the PII
             PII




. I
  iI
  i




                       The OIG did not find evidence to substantiate this allegation. In its investigation,
         PII




                                                                60
       This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
       before disclosure to third parties. No redaction has been performed by the Office of Inspector
       General. Recipients of this report should not disseminate or copy it without the Inspector General's
       approval.
                                                   PII
               In his testimony before the OIG
      PII




      PII                                                                                            OCIE Supv.
                                         Accordingly, the OIG did not find evidence that             4

       testimony was false or inaccurate as Former OCIE Empl. 2               PII

      PII

  PII

                     OCIE Supv. 4                                                        PII

      PII
                                                                                               or that OCIE Supv. 4
       ever became aware of such knowledge on the part of any SEC employee.
                                                              OCIE Supv. 4
            The anonymous complaint also claimed                 had engaged in a misstatement
 PII
                                                 that he had not been the subject of any
    disciplinary action or performance improvement plan. The anonymous complaint
    indicated that OCIE Supv. 10 had mentored him because of his "poor people skills." The OIG
    investigated this allegation and found no evidence OCIE Supv. 4 was the subject of any
    disciplinary action or ever placed on a performance improvement plan, and OCIE Supv. 10
                                                      OCIE
    specifically testified that her efforts to mentorSupv. 4were not part of any disciplinary action
    against him or any finding that his performance was deficient. OCIE Supv. 10      Testimony Tr.
   at 11.24


                                                  Conclusion

              The OIG investigation found that in 2005, the SEC's LARO missed a significant
      opportunity to uncover a Ponzi scheme and failed to conduct a competent and thorough
      examination of the investment adviser, Westridge Capital Management, and did not take
      the necessary steps to ensure that a follow-up examination of the broker-dealer, WG
      Trading was conducted. The OiG further found that in 2009, when an examination team
      conducted a joint examination of Westridge and WG Trading, which it acknowledged
      were both operating in the "exact same fashion" in 2009 as in 2005, and the 2009
      examination team followed up on the same "red flags" identified in 2005, the fraud was
      quickly and easily discovered. The OIG investigation also concluded that had the LARO
      referred their findings to the BRO and had a broker-dealer examination of WG Trading
      been conducted in 2005, the fraud would have likely been discovered.



PII




                                                         61
         This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
         before disclosure to third parties. No redaction has been performed by the Office of Inspector
(   .~
         General. Recipients of this report should not disseminate or copy it without the Inspector General's
         approval.

                 The OIG investigation found a major difference between the manner in which the
         two examinations were conducted related to the fact that the 2009 examinations were
         conducted after the "Madoff' scandal. The OIG found that after Bernard Madoff
         confessed to operating a $50 billion Ponzi scheme and the OIG issued a report of
         investigation regarding the failure of the SEC to uncover Bernard Madoff s Ponzi
         scheme, SEC examiners focused more acutely on custody of assets, conducted more joint
         examinations and were more aggressive in seeking records from unregistered firms.
         Unfortunately, the OIG investigation found that the 2005 Westridge examination was
         conducted under "pre-Madoff' procedures by examiners, who were aware of and had in
         their hands evidence of potential fraud, but did not take the basic steps necessary to
         investigate the matter further and, as in Madoff, a significant fraud was not uncovered at
         that time.           '

                 The QIG also specifically investigated the allegation in the anonymous complaint
             OCIE Supv. 4
         that                                     "instructed (and even bullied) examiners to not
         pursue certain red flags" in the 2009 examinations in an attempt to hide his failures in the
         2005 examination. While the OIG investigation did not find evidence substantiating the
         claimOCIE Supv. 4 instructed or bullied examiners to ignore "red flags" in the 2009
         examinations of Westridge and WG Trading that would have identified issues or areas
                                                                                      OCIE Supv. 4
         that he himself failed to uncover in the 2005 Westridge examination or                    directed
         substantive changes to the report's findings, the OIG did find that examiners were
                                 OCIE
         uncomfortable with Supv. 4 involvement in the 2009 examinations and that this created an
                                                                         OCIE
         appearance of impropriety, which could have been avoided Supv. 4 had been initially
         recused from the 2009 examinations. In the course of its investigation, the OIG also
                                                                                             OCIE Supv. 4
         found evidence that many LARO employees had significant concerns about
         management style in general. Yet, the OIG also found that there was little, if any,
         evidence that any action was taken by management to resolve or even address these
         concerns.

                 Accordingly, the OIG recommends that the Chairman, Director of OCIE and the
         LARO Regional Director carefully review this ROI and share with LARO management
         the portions of this ROI that relate to the performance failures by those employees who
         still work at the SEC, so that appropriate action (which may include appropriate
         performance-based action) is taken, on an employee-by-employee basis, as appropriate.

                The OIG also specifically recommends that OCIE Supv. 4                                not be
         placed back in a supervisory role in the LARO.

                 The OIG is also recommending that the Chairman, the Director of OCIE and the
         LARO Regional Director take the necessary actions to esta1;>lish appropriate mechanisms
         in the LARO to ensure that employee feedback about supervisors is appropriately and
         sufficiently addressed so that LARO employees feel comfortable conveying feedback
         about their superiors without fear of retaliation.




                                                         62
        This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
        before disclosure to third parties. No redaction has been performed by the Office of Inspector
        General. Recipients of this report should not disseminate or copy it without the Inspector General's
        approval.

                The OIG recommends that the LARO establish a recusal policy whereby an
        individual who previously worked on an examination that did not uncover an existing
        fraud is recused from working on a subsequent "cause" examination of that entity looking
        for evidence of the fraud. The OIG also recommends that the LARO include, in its
        examination referral policy and procedures, a mechanism for tracking the outcome of an
        examination referral, particularly where a follow-up examination is recommended.

               This report is being provided to the Regional Director of the Los Angeles
        Regional Office, the Deputy q.1ief of Staff, Office of the Chairman, Commissioner
        Waiter, Director of the Office of Compliance Inspections and Examinations, the General
        Counsel, the Ethics Counsel, the Associate Executive Director for the Office of Human
        Resources, and the Director of the Office of Equal Employment Opportunity.

                    PII




        Submitted                                                  Date:     IO-;)t:, -/0


        Concur:                                                    Date:



        Approved:                                                  Date:     Ie)· )G·/O




.   i




                                                        63
